App. 1
United States Court of Appeals
For the Eighth Circuit
-----------------------------------------------------------------------

No. 18-1316
-----------------------------------------------------------------------

Unity HealthCare
Plaintiff - Appellant
v.
Alex M. Azar, II, Secretary,
U.S. Department of Health and Human Services
Defendant - Appellee
-----------------------------------------------------------------------

No. 18-1703
-----------------------------------------------------------------------

St. Anthony Regional Hospital
Plaintiff - Appellant
v.
Alex M. Azar, II, Secretary,
U.S. Department of Health and Human Services
Defendant - Appellee
-----------------------------------------------------------------------

No. 18-1704
-----------------------------------------------------------------------

Lakes Regional Healthcare
Plaintiff - Appellant
v.

App. 2
Alex M. Azar, II, Secretary of the
Department of Health and Human Services
Defendant - Appellee
-----------------------------------------------------------------------

Appeals from United States District Court
for the Northern District of Iowa - Sioux City
-----------------------------------------------------------------------

Submitted: November 13, 2018
Filed: March 12, 2019
-----------------------------------------------------------------------

Before BENTON, BEAM, and ERICKSON, Circuit
Judges.
-----------------------------------------------------------------------

ERICKSON, Circuit Judge.
The Medicare statute directs the Secretary of Health
and Human Services to adjust payment amounts to
qualifying sole community and rural hospitals through
a “volume-decrease adjustment” (“VDA”) when a hospital experiences a significant decrease in the number
of its inpatients because of circumstances beyond its
control. 42 U.S.C. § 1395ww(d)(5)(D)(ii). Appellants
Unity HealthCare, Lakes Regional Healthcare, and
St. Anthony Regional Hospital are three qualifying
rural hospitals. The hospitals challenge the method
the Secretary, acting through the Administrator of
the Centers for Medicare & Medicaid Services, used to
calculate the VDA for certain fiscal years during the
mid-2000s. They also challenge the Administrator’s
classification of certain costs as variable costs when

App. 3
calculating the adjustment. On January 30, 2018, the
district court upheld the actions of the Secretary in
Unity HealthCare’s and Lake Regional’s cases.1 On
February 6, 2018, the district court upheld the actions
of the Secretary in St. Anthony’s case.2 We consolidated
the cases for argument, and affirm.
I.

Background

Before 1983, when a participating provider hospital incurred Medicare-eligible costs the hospital’s actual costs incurred were fully reimbursed on a dollarfor-dollar basis so long as the claimed costs were found
by the Secretary to be reasonable. Baptist Health v.
Thompson, 458 F.3d 768, 771 (8th Cir. 2006). In 1983,
Congress responded to concerns that hospitals had “little incentive . . . to keep costs down,” and implemented
an inpatient prospective payment system. Cty. of Los
Angeles v. Shalala, 192 F.3d 1005, 1008 (D.C. Cir. 1999)
(quoting Tucson Med. Ctr. v. Sullivan, 947 F.2d 971, 974
(D.C. Cir. 1991)). Under the prospective payment system, a treating hospital receives a predetermined fixed
payment based on a given patient’s “diagnosis-related
group,” or DRG. See 42 U.S.C. § 1395ww(d)(1)(A)(iii),

1

The Honorable Helen C. Adams, Chief United States Magistrate Judge for the Southern District of Iowa.
2
The Honorable Leonard T. Strand, Chief Judge, United
States District Court for the Northern District of Iowa, adopting
the report and recommendations of the Honorable Kelly K.E.
Mahoney, United States Magistrate Judge for the Northern District of Iowa.

App. 4
(d)(4). The DRG-adjusted amount “is theoretically
equal to the ‘average’ cost per patient” for a costeffective hospital in a given location, but does not represent the actual costs of treatment. Cmty. Hosp. of
Chandler, Inc. v. Sullivan, 963 F.2d 1206, 1207–08 (9th
Cir. 1992), as amended (July 10, 1992). Hospitals are
incentivized to minimize actual costs because they
may pocket any excess balance between their costs and
the DRG-adjusted amount. See id.
Certain sole community hospitals and Medicaredependent, small rural hospitals fall under a modified
reimbursement scheme. Those hospitals are paid either based off of the standard DRG “or a hospitalspecific rate derived from its actual costs of treatment
in one of the base years specified in the statute, whichever is higher.” Adirondack Med. Ctr. v. Burwell, 782
F.3d 707, 709 (D.C. Cir. 2015) (citing 42 U.S.C.
§ 1395ww(d)(5)(D, G); 42 C.F.R. §§ 412.92, 412.108).
Such hospital is also able to request a VDA if it experiences “a decrease of more than 5 percent in its total
number of inpatient cases due to circumstances beyond its control.” 42 U.S.C. § 1395ww(d)(5)(D)(ii),
(d)(5)(G)(iii). The VDA is offered as “necessary to fully
compensate the hospital for the fixed costs it incurs in
the period in providing inpatient hospital services, including the reasonable cost of maintaining necessary
core staff and services.” 42 U.S.C. § 1395ww(d)(5)(D)(ii).
Eligible fixed costs, such as “rent, interest, and depreciation,” were “those over which management has no
control.” 48 Fed. Reg. 39,752, 39,781 (Sept. 1, 1983).
“Variable costs,” such as “food and laundry services,”

App. 5
would not be reimbursed because they “vary directly
with utilization.” Id. at 39,781–82. The Secretary recognized that certain costs were “essential for the hospital to maintain operation but [would] vary with
volume.” Id. at 39,781. Those “semi-fixed” costs would
be “considered as fixed on a case by case basis.” Id.
at 39,782. This advice was repeated in § 2810.1(B)
of the Provider Reimbursement Manual (the “Manual”).
In 1987, the agency amended its regulations after
observing hospitals claiming eligibility for VDAs after
experiencing a downturn in patients even though their
DRG payments actually exceeded their inpatient operating costs. Recognizing that granting a VDA in those
circumstances would conflict with the general purpose
behind adopting the prospective payment system, the
agency made clear “that any adjustment amounts
granted to [sole community hospitals] for a volume decrease may not exceed the difference between the hospital’s Medicare inpatient operating costs and total
payments made under the prospective payment system.” 52 Fed. Reg. 33,034, 33,049 (Sept. 1, 1987).
To receive a VDA, qualifying hospitals must submit an annual cost report to fiscal intermediaries or
Medicare Administrative Contractors. The Centers for
Medicare and Medicaid Services contract with those
entities to determine payment amounts due providers.
42 U.S.C. § 1395h, 42 C.F.R. §§ 413.20(b) and .24(a-b).
The contractor then audits the report and notifies the
hospital of its total Medicare reimbursement for that
fiscal year. 42 C.F.R. § 405.1803. If a hospital disputes

App. 6
the amount of reimbursement, it may appeal the determination “to the Provider Reimbursement Review
Board and, under certain circumstances, may obtain a
hearing from the Board.” Bethesda Hosp. Ass’n v.
Bowen, 485 U.S. 399, 401 (1988). Decisions by the
Board are subject to review by the Administrator or
the Centers for Medicare and Medicaid Services. 42
C.F.R. § 405.1834. A final decision by the Board or by
the Administrator is subject to judicial review. 42
U.S.C. § 1395oo(f ); 42 C.F.R. § 405.1877.
During the time period in question, no regulation
provided for a specific method of calculating a VDA
payment. Instead, the contractors were directed to consider: “(A) [t]he individual hospital’s needs and circumstances, including the reasonable cost of maintaining
necessary core staff and services in view of minimum
staffing requirements imposed by State agencies;
(B) [t]he hospital’s fixed (and semi-fixed) costs, other
than those costs paid . . . under [other provisions]; and
(C) [t]he length of time the hospital has experienced a
decrease in utilization.” 42 C.F.R. § 412.92(e)(3). The
amount of the adjustment was capped at the “ceiling”
of “the difference between the hospital’s Medicare inpatient operating costs and the hospital’s total DRG
revenue for inpatient operating costs.” Id.
This consolidated appeal arises from contested
decisions by the Administrator concerning the VDA
amounts due to each hospital. Unity requested $741,308
for fiscal year 2006, the difference between its Medicare inpatient operating costs ($5,698,829) and its DRG
payments ($4,957,521) in that year. The contractor

App. 7
reclassified $664,994 in costs as “variable” for: (i) billable medical supplies; (ii) billable drugs and intravenous solutions; (iii) professional services and supplies
obtained from outside providers for physical therapy,
reference laboratory, blood bank, and radiology; and
(iv) dietary and linen services and supplies. The contractor calculated the net VDA payment as $76,314.
Unity appealed the decision to the Board.
Lakes Regional requested $1,184,574 for fiscal year
2006, the difference between its Medicare inpatient
costs ($4,923,186) and its DRG payments ($3,738,612)
for that year. The contractor reclassified $1,360,118 in
costs as “variable” for: (i) billable medical supplies associated with anesthesia, laboratory, oncology and
emergency departments and respiratory therapy services; (ii) billable drugs and intravenous solutions;
(iii) professional services and supplies obtained from
outside providers for physical therapy, speech therapy,
blood bank, and radiology; and (iv) dietary and linen
services and supplies. Because Lakes Regional’s decreased total costs were now lower than the DRG payments Lakes Regional had received for that year, the
contractor denied a VDA. Lakes Regional appealed
that decision to the Board.
St. Anthony requested $1,954,257 for fiscal year
2009, the difference between its total inpatient operating costs ($8,333,903) and its total Pay Per Service payments for that year. The contractor excluded
$1,619,594 attributed to services and supplies similar
to those excluded for Unity and Lakes Regional, corrected the subtracted payment total to equal total DRG

App. 8
payments ($6,273,905) and calculated the VDA payment as $440,404. St. Anthony appealed that decision
to the Board.
The Board upheld the contractor’s classification of
certain costs as variable in all three cases. However,
the Board disagreed with the contractor’s method for
calculating the VDA. In its decisions in the Unity and
Lakes Regional cases, the Board proposed a formula
under which a contractor would first ask if the precondition was satisfied that a VDA was warranted. If so,
then the VDA amount would be the hospital’s total
fixed costs, but capped at the regulatory “ceiling” that
the payment would not exceed the difference between
the hospital’s total Medicare inpatient operating costs
(including variable costs) and its DRG payments. Since
Unity’s and Lakes Regional’s total fixed costs were far
in excess of that ceiling, the Board ruled that each was
entitled to a payment equal to the difference its total
Medicare inpatient operating costs and its DRG payments, which was the amount the hospitals originally
requested.
The Board used a different formula to calculate
St. Anthony’s VDA. The Board used a proportional
method in which it used the ratio of the hospital’s fixed
costs to total costs to apportion some of the DRG payments to the hospital’s fixed costs. The Board then subtracted the “fixed portion” of the DRG payments from
the hospital’s fixed costs to determine the VDA (concluding it would equal $1,690,823).

App. 9
The Administrator reversed the Board’s VDA calculation methodology in all three cases, holding that
the contractor’s initial methodology was correct. The
Administrator affirmed, however, the Board’s rulings
that the contractors had properly classified certain
costs as variable.
Each hospital sought judicial review, claiming
that the Secretary’s decision was arbitrary, capricious,
and contrary to the statute. In support of their calculation methodology, the hospitals relied heavily on
sample calculations contained within § 2810.1(B) of
the Manual that subtracted total DRG payments from
“Program Inpatient Operating Costs.” The hospitals
also focused on evidence suggesting that more generous formulas had occasionally been used to calculate
the VDA before 2006. The hospitals asserted that in
the absence of any formal rule change, the Secretary
could not adopt the different formula.
While the hospitals’ cases were pending, the
agency issued a notice of proposed rulemaking to modify the method used to calculate the VDA. See 82 Fed.
Reg. 19,796, 19,933–35 (Apr. 28, 2017). The substance
of the new proposed rule largely tracked the proportional method the Board had used in the St. Anthony
case. Under the new rule, contractors would estimate
the “fixed portion” of a hospital’s DRG payments by using the ratio of the hospital’s fixed costs to total costs.
They would then calculate the VDA as the difference
between the hospital’s fixed costs and the “fixed portion” of its DRG payments. The proposed rulemaking
made clear, however, that the agency “continue[d] to

App. 10
believe that [its] current approach in calculating volume decrease adjustments is reasonable and consistent with the statute.” Id. at 19,934. When the
agency adopted the new rule, it did not apply it retroactively. See 82 Fed. Reg. 37,990, 38,179–83 (Aug. 14,
2017).
The district court upheld the Secretary’s actions
in the Unity and Lakes Regional cases in a single opinion. The district court referred St. Anthony’s case to a
magistrate judge, who recommended ruling in favor of
the agency. The district court issued an opinion overruling St. Anthony’s objections to the recommendation and accepted the recommendation. The hospitals
timely appealed, and we consolidated for argument.
II.

Discussion

Medicare reimbursement decisions are given deference under the Administrative Procedure Act. See
42 U.S.C. § 1395oo(f )(1). “Under the APA, the Secretary’s decision is ‘set aside [only] if it is arbitrary,
capricious, an abuse of discretion, unsupported by substantial evidence, or contrary to law.’ ” Baptist Health,
458 F.3d at 773 (quoting St. Luke’s Methodist Hosp. v.
Thompson, 315 F.3d 984, 987 (8th Cir. 2003)). “We afford substantial deference to an agency’s interpretation of its own regulations.” Kindred Hosps. E., LLC v.
Sebelius, 694 F.3d 924, 928 (8th Cir. 2012) (citing
Thomas Jefferson Univ. v. Shalala, 512 U.S. 504, 512
(1994)). This is particularly true when the case involves “a complex and highly technical regulatory

App. 11
program” such as Medicare, which demands “the exercise of judgment grounded in policy concerns.” Thomas
Jefferson Univ., 512 U.S. at 512 (quoting Pauley v.
BethEnergy Mines, Inc., 501 U.S. 680, 697 (1991)).
Whether the district court erred in affirming the Administrator’s decision is a question of law we review de
novo. See, e.g., Baptist Health, 458 F.3d at 773 (quoting
Shalala v. St. Paul-Ramsey Med. Ctr., 50 F.3d 522, 527
(8th Cir. 1995)).
A. The Secretary’s Interpretation of the Statute
The statute’s command that a hospital should be
“fully compensated” for its “fixed costs” does not give
the Secretary a formula or method for determining
what amounts to full compensation. This is an instance
where “the Secretary was left with little or no statutory guidance.” St. Mary’s Hosp. of Rochester, Minn. v.
Leavitt, 416 F.3d 906, 914 (8th Cir. 2005). When such a
statutory gap “is filled by . . . formal agency adjudication, we will hold such a construction impermissible
only if the agency acted unreasonably.” Id. (citing
Chevron U.S.A., Inc. v. Natural Res. Def. Council, Inc.,
467 U.S. 837, 843–44 (“Chevron”) (1984)).
The Secretary’s interpretation is a reasonable interpretation of the plain language of the statute. The
precise language at issue says that the VDA should
be given “as may be necessary to fully compensate”
a qualified hospital “for the fixed costs it incurs . . .
in providing inpatient hospital services.” 42 U.S.C.
§ 1395ww(d)(5)(D)(ii). The Secretary’s interpretation

App. 12
ensures that the total amount of a hospital’s fixed costs
in a given cost year are paid out through a combination
of DRG payments and the VDA. As the Secretary
points out, the prospective nature of DRG payments
makes it difficult to determine how best to allocate
those payments against the actual fixed costs a hospital incurs. Given the lack of guidance in the statute
and the substantial deference we afford to the agency
in this case, the Secretary’s decision reasonably complied with the mandate to provide full compensation.
That the Secretary has prospectively adopted a
new interpretation (the proportional approach) is not
a sufficient reason to find the Secretary’s prior interpretation arbitrary or capricious. “An initial agency interpretation is not instantly carved in stone. On the
contrary, the agency . . . must consider varying interpretations and the wisdom of its policy on a continuing basis.” Nat’l Cable & Telecommunications Ass’n
v. Brand X Internet Servs., 545 U.S. 967, 981 (2005)
(quoting Chevron, 467 U.S. at 863–64); see also LaRouche v. FEC, 28 F.3d 137, 141 (D.C. Cir. 1994) (“The
mere fact that regulations were modified, without
more, is simply not enough to demonstrate that the
prior regulations were invalid.”). The agency received
substantial feedback from hospitals that separating total DRG payments into “fixed” and “variable” estimates before calculating the VDA would better fulfill
the statutory command to ensure “full” compensation.
On the basis of that feedback, the agency re-evaluated
the “wisdom of its policy” through a formal rulemaking.
But that re-evaluation does not require us to conclude

App. 13
that the prior interpretation was unreasonable. A statute can have more than one reasonable interpretation,
as in this case. See Smiley v. Citibank (S.D.), N.A., 517
U.S. 735, 744–45 (1996) (stating that “the question before us is not whether [an agency interpretation] represents the best interpretation of the statute, but
whether it represents a reasonable one”).
B. The Secretary’s Interpretation of VDARelated Regulations
“Where a regulation’s plain language does not control the issue, we must uphold an agency’s interpretation of its own regulation unless that interpretation is
plainly erroneous or inconsistent with the regulation.”
St. Luke’s Methodist Hosp., 315 F.3d at 987 (citations
omitted) (internal quotation marks omitted). At first
glance, the Secretary’s interpretation of the relevant
regulations in these cases is clearly consistent with
their text. See 42 C.F.R. § 412.92(e)(3). The formula
adopted by the Secretary ensures that any given VDA
will not exceed “the difference between the hospital’s
Medicare inpatient operating costs and the hospital’s
total DRG revenue for inpatient operating costs.” Id.
And in all three cases, the Secretary considered individual characteristics of each hospital alongside the
fixed or non-fixed nature of their costs. See id.
The hospitals’ main argument to the contrary relies on the premise that the Manual’s sample calculations unambiguously conflict with the Secretary’s
interpretation and that the Secretary is bound by the

App. 14
Manual as incorporated via later regulations. The hospitals point out that the Secretary has previously
stated that § 2810.1(B) of the Manual, where the examples are located, contains “the process for determining the amount of the volume decrease adjustment.”
See 71 Fed. Reg. 47,870, 48,056 (Aug. 19, 2006). However, the examples are not presented in isolation. The
same section of the Manual reiterates that the volumedecrease adjustment is “not to exceed the difference between the hospital’s Medicare inpatient operating cost
and the hospital’s total DRG revenue.” In a decision
interpreting § 2810.1(B) immediately following the
Secretary’s guidance, the Board found “that the examples are intended to demonstrate how to calculate the
adjustment limit as opposed to determining which
costs should be included in the adjustment.” See
Greenwood Cty. Hosp. v. BlueCross BlueShield Ass’n,
No. 2006-D43, 2006 WL 3050893, at *9 n.19 (P.R.R.B.
Aug. 29, 2006). That decision was not reviewed by the
Secretary and therefore became a final agency action.
The agency’s conclusion that the examples are meant
to display the ceiling for a VDA, rather than its total
amount, is a reasonable interpretation of the regulation’s use of “not to exceed,” rather than “equal to,”
when describing the formula.3We conclude that the
3

The hospitals’ argument that some fiscal intermediaries
may have used a more generous formula in previous years does
not alter our conclusion that the Secretary’s interpretation in
these cases was not arbitrary or capricious. “While a fiscal intermediary is the Secretary’s agent for purposes of reviewing cost
reports and making final determinations with respect to the total
reimbursement due to a provider absent an appeal to the [Board],
intermediary interpretations are not binding on the Secretary,

App. 15
Secretary’s interpretation was not arbitrary or capricious and was consistent with the regulation.4
C. The Secretary’s Classification of Certain
Costs as Variable
The costs at issue in this case are reasonably classified as variable costs. The agency emphasizes that its
overriding principle for classifying costs as variable is
whether costs vary with patient volume. Each of the
identified costs varies with patient volume. The hospitals are correct that some costs that the agency classified as semi-fixed may also, over time, vary with
volume. However, that only serves to demonstrate the
sound judgment behind considering some “semi-fixed
costs, such as personnel-related costs . . . as fixed on a
case-by-case basis.” Manual § 2810.1(B); see also 42
C.F.R. § 412.92(e)(3)(i) (requiring intermediaries to
“consider” semi-fixed costs in determining the VDA,

who alone makes policy.” Cty. of Los Angeles v. Leavitt, 521 F.3d
1073, 1079 (9th Cir. 2008) (citation omitted). To the extent that
the Secretary may have discovered that certain intermediaries
were incorrectly using a more generous formula, it was not foreclosed from correcting the formula to better comply with its understanding of the statute and regulations.
4
We note that the Manual contains interpretative rules. See
In Home Health, Inc. v. Shalala, 188 F.3d 1043, 1047 (8th Cir.
1999) (citing St. Paul-Ramsey Med. Ctr., 50 F.3d at 527–28 n.4).
An agency may change its interpretation of a regulation “if the
revised interpretation is consistent with the underlying regulations,” as in this case. Perez v. Mortg. Bankers Ass’n, 135 S. Ct.
1199, 1209 (2015) (citation omitted).

App. 16
without specifying a particular method of incorporating them into the VDA).
The agency’s decision to classify certain costs that
are directly tied to patient volume as variable was neither arbitrary nor capricious. To the extent any of the
hospitals now claims that some portion of its variable
costs were in fact semi-fixed, each has failed to meet
its burden of demonstrating entitlement to a payment
adjustment. See 42 U.S.C. § 1395g(a).
III. Conclusion
We affirm.

App. 17
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
UNITY HEALTHCARE,
Plaintiff(s),

3:14-cv-00121-HCA
(Davenport Division)

vs.
ERIC D. HARGAN,
Acting Secretary of Health
and Human Services,1
Defendant(s).
LAKES REGIONAL
HEALTHCARE,
Plaintiff(s),
vs.
ERIC D. HARGAN,
Acting Secretary of the
Department of Health
and Human Services,

5:14-cv-04097-HCA
(Northern District of
Iowa, Western Division)
MEMORANDUM
OPINION AND ORDER
FOR JUDGMENT
(Filed Jan. 30, 2018)

Defendant(s).
Plaintiffs Unity Healthcare and Lakes Regional
Healthcare, both Iowa hospitals, challenge decisions
of the Secretary of the Department of Health and Human Services (the “Secretary”) denying them payment of a specific Medicare payment known as the

1

Secretary Hargan is substituted for his predecessor in accordance with Federal Rule of Civil Procedure 25(d).

App. 18
volume-decrease adjustment or “VDA.”2 The facts are
undisputed and the plaintiffs do not challenge the statutes, regulations or interpretive guides under which
the Secretary made the decision. At issue is whether
the Secretary’s decision was arbitrary and capricious
or not supported by substantial evidence. Although
these cases remain separate, because the PRRB and
the Secretary dealt with them jointly, the factual background is similar and legal issues the same, the Court
will issue one ruling which will be filed in each case.
I.

STATUTORY AND REGULATORY BACKGROUND

The Medicare Program (the “Program”) was established to provide health insurance to the aged and disabled. 42 U.S.C. § 1395 et seq. The Secretary has
delegated authority to administer the Program to the
Centers for Medicare and Medicaid Services (“CMS”).3
Under the Program qualifying health care providers
are reimbursed for the costs of treating Medicare patients. 42 U.S.C. § 1395g. The payment and audit functions of CMS have been contracted to organizations
known as fiscal intermediaries (FIs) and Medicare
Administrative Contractors (MACs), both of which determine payment amounts due providers under the
applicable law and interpretive guidelines CMS has

2

As discussed further infra at 8-9, Unity’s requested VDA
was substantially reduced and Lakes’ request denied.
3
Formerly the Health Care Financing Administration (HCFA).
(Def. Brief [25] at 1).

App. 19
published. 42 U.S.C. § 1395h, 42 C.F.R. §§ 413.20(b)
and .24(b).
Under the Social Security Amendments of 1983,
Pub. L. No. 98-21 tit. VI, 97 Stat. 65, 149-72, hospitals are reimbursed for inpatient operating costs and
capital-related costs on the basis of predetermined
rates for each patient discharge, the Inpatient Prospective Payment System (IPPS). 42 U.S.C. § 1395ww(d).
IPPS payments are based on a diagnosis-related group
(“DRG”) assigned to each patient. Id. § 1395ww(d)(2).
DRG amounts “approximate the average cost of caring
for a patient with a given diagnosis in a cost-effective
hospital” with adjustments for geography and other
factors, and not the actual cost of caring for a patient.
(Pl. Brief [19-1]).
Providers (hospitals) submit annual cost reports
to the MAC at the close of their accounting year, showing costs incurred for the fiscal year and the proportion of the costs allocable to the Program. 42 C.F.R.
§§ 413.20, 413.24(f ). The MAC audits the cost report
and issues a Notice of Program Reimbursement (NPR),
the total Medicare reimbursement due the hospital for
that fiscal year. 42 C.F.R. § 405.1803. A hospital may
appeal the MAC’s reimbursement determination to
the Provider Reimbursement Review Board (“PRRB”).
42 U.S.C. § 1395oo(a); 42 C.F.R. § 405.1835. The PRRB
is an administrative review entity appointed by the
Secretary to adjudicate disputes between hospitals
and the MACs, 42 U.S.C. § 1395oo(a), conduct hearings
and issue written decisions. 42 C.F.R. § 405.1871. A decision by the PRRB is final unless reversed, affirmed

App. 20
or modified by the Secretary. 42 U.S.C. § 1395oo(f )(1);
42 C.F.R. § 405.1875(b). The Secretary has delegated
PRRB review authority to the Administrator of CMS
(“Administrator”). 42 C.F.R. § 405.1834. A final decision by PRRB or by the Administrator is subject
to judicial review. 42 U.S.C. § 1395oo(f ); 42 C.F.R.
§ 405.1877.
Both plaintiff hospitals qualify as “Sole Community Hospitals” (SCHs) as defined in 42 C.F.R. § 412.92.
SCHs may be entitled to an adjustment of their Medicare reimbursement payments if they incur a decrease
in inpatient discharges of more than five percent from
one cost reporting year to the next, the VDA.
In the case of a sole community hospital that
experiences, in a cost reporting period compared to the previous cost reporting period, a
decrease of more than 5 percent in its total
number of inpatient cases due to circumstances beyond its control, the Secretary shall
provide for such adjustment to the payment
amounts under this subsection (other than
under paragraph (9)) as may be necessary to
fully compensate the hospital for the fixed
costs it incurs in the period in providing inpatient hospital services, including the reasonable cost of maintaining necessary core staff
and services.
42 U.S.C. § 1395ww(d)(5)(D)(ii). To qualify for the VDA,
a hospital must timely submit its request for payment
with information which “[d]emonstrate[es] the size of
the decrease in discharges and the resulting effect on

App. 21
per discharge costs” and “show[ing] that the decrease
is due to circumstances beyond the hospital’s control.”
42 C.F.R. § 412.92(e)(2). It is undisputed that both
plaintiff hospitals experienced qualifying decreases.
The FI or MAC then determines the appropriate
adjustment amount, if any, which is due the hospital:
The intermediary determines a lump sum adjustment amount not to exceed the difference
between the hospital’s Medicare inpatient operating costs and the hospital’s total DRG revenue for inpatient operating costs based on
DRG-adjusted prospective payment rates for
inpatient operating costs. . . .
(i) In determining the adjustment amount,
the intermediary considers –
(A) The individual hospital’s needs
and circumstances, including the
reasonable cost of maintaining necessary core staff and services in view
of minimum staffing requirements
imposed by State agencies;
(B) The hospital’s fixed (and semifixed) costs, other than those costs
paid on a reasonable cost basis under
part 413 of this chapter; and
(C) The length of time the hospital
has experienced a decrease in utilization.
42 C.F.R. § 412.92(e)(3). CMS has provided interpretive guidance in the Provider Reimbursement Manual,

App. 22
CMS Pub. No. 15-1 (PRM 15-1). The applicable guidance instructs the MACs in calculating VDAs:
B. Amount of Payment Adjustment. – Additional payment is made to an eligible SCH for
the fixed costs it incurs in the period in providing inpatient hospital services including the
reasonable cost of maintaining necessary core
staff and services, not to exceed the difference
between the hospital’s Medicare inpatient operating cost and the hospital’s total DRG revenue.
Fixed costs are those costs over which management has no control. Most truly fixed costs,
such as rent, interest, and depreciation, are
capital-related costs and are paid on a reasonable cost basis, regardless of volume. Variable
costs, on the other hand, are those costs for
items and services that vary directly with utilization such as food and laundry costs.
In a hospital setting, however, many costs are
neither perfectly fixed nor perfectly variable,
but are semifixed. Semifixed costs are those
costs for items and services that are essential
for the hospital to maintain operation but also
vary somewhat with volume. For purposes of
this adjustment, many semifixed costs, such
as personnel- related costs, may be considered
as fixed on a case-by-case basis.
In evaluating semifixed costs, the intermediary considers the length of time the hospital
has experienced a decrease in utilization. For
a short period of time, most semifixed costs are
considered fixed. As the period of decreased

App. 23
utilization continues, we expect that a costeffective hospital would take action to reduce
unnecessary expenses. Therefore, if a hospital
did not take such action, some of the semifixed
costs may not be included in determining the
amount of the payment adjustment.
The adjustment amount includes the reasonable cost of maintaining necessary core staff
and services. The intermediary reviews the
determination of core staff and services based
on an individual hospital’s needs and circumstances; e.g., minimum staffing requirements
imposed by State agencies.
PRM 15-1 § 2810.1(B). In processing an adjustment request the following further directions are provided:
D. Determination on Requests. – The intermediary reviews a hospital’s request for
additional payment for completeness and accuracy. If any of the required documentation
is missing, incomplete, or inaccurate, the intermediary requests the needed information.
The intermediary makes a determination on
the request and notifies the hospital of the decision within 180 days of the date the intermediary receives all required information.
The payment adjustment is calculated under
the same assumption used to evaluate core
staff, i.e., the hospital is assumed to have
budgeted based on prior year utilization and
to have had insufficient time in the year in
which the volume decrease occurred to make
significant reductions in cost. Therefore, the
adjustment allows an increase in cost up to

App. 24
the prior year’s total Program Inpatient Operating Cost (excluding pass-through costs), increased by the PPS update factor.
Id. § 2810.1(D). The manual then gives examples of
how to make the adjustment request:
EXAMPLE A: Hospital C has justified an adjustment to its DRG payment for its FYE September 30, 1987. The adjustment is calculated
as follows:
Hospital C
PPS Payment Adjustment
Fiscal Year Ended 09/30/87
1

FY 1986 Program Operating Cost

PPS Update Factor

$2,900,000
x

1.0115

FY 1987 Maximum Allowable Cost

$2,933,350

Hospital C FY 1987 Program
Inpatient Operating Cost

$2,800,000

2

FY 1987 DRG Payment

FY 1987 Payment Adjustment

- $2,500,000
$ 300,000

1

From Worksheet D-1, Part II, Line 54
From Worksheet E, Part A, Lines 1A and 1B

2

Since Hospital C’s FY 1987 Program Inpatient Operating Cost was less than that of FY
1986 increased by the PPS update factor, its
adjustment is the entire difference between
FY 1987 Program Inpatient Operating Cost
and FY 1987 DRG payments.

App. 25
EXAMPLE B: hospital D has justified an adjustment to its DRG payment for its FYE December 31, 1988. The adjustment is calculated
as follows:
Hospital D
PPS Payment Adjustment
Fiscal Year Ended 12/31/88
FY 1987 Program Operating Cost
PPS Update Factor

$1,400,000
x

1.0247

FY 1988 Maximum Allowable Cost

$1,434,580

Hospital D FY 1988 Program
Inpatient Operating Cost

$1,500,000

FY 1988 DRG Payment

- $1,020,000

FY 1988 Payment Adjustment

$ 414,580

Hospital D’s FY 1988 Program Inpatient Operating Cost exceeded that of FY 1987 increased by the PPS update factor, so the
adjustment is the difference between FY 1987
cost adjusted by the update factor and FY
1988 DRG payments.
Id.
II.

FACTUAL
GROUND

AND

PROCEDURAL

BACK-

A. Unity Healthcare
Unity Healthcare (“Unity”) operates a 48-bed general acute-care facility in Muscatine, Iowa. Unity is
certified to provide inpatient hospital services under

App. 26
the Program and has qualified for and been reimbursed by CMS as an SCH. Its designated intermediary (MAC) is Wisconsin Physician Services. (Tr. [10] at
48).4
Between fiscal year (FY) 2005 and FY 2006 Unity
experienced a 16.89% decline in inpatient discharges.
(Tr. [10] at 48). The MAC has stipulated the decline
was due to circumstances beyond Unity’s control. (Id.)
Unity received its NPR for FY 2006 on December 7,
2007 and submitted a request for VDA of $741,308.
(Id.) Unity calculated its request as follows:
FY 2005 Program Operating Cost 1
PPS Update Factor
2
5
FY 2005 Maximum Allowable Cost 3

$6,714,575
x
1.037
$6,963,014

FY 2006 Program Inpatient
Operating Cost
FY 2006 DRG Payment
FY 2006 Payment Adjustment

$5,698,829
- 4,957,521
$ 741,308

4
5
6

(Tr. [10-2] at 722).
The MAC adjusted the reported costs by reclassifying certain costs as “variable,” specifically, Unity’s
costs for (i) billable medical supplies, (ii) billable drugs
4

All transcript citations are from the Southern District
docket in 3:14-cv-00121-HCA. For ease of reference the Court has
referred to the transcripts as “Tr.” and the docket number.
5
The Court, based on the examples given in the PRM, believes that this reference should actually be FY 2006 Maximum
Allowable Cost (see p.5-6 supra), but that issue does not impact
the analysis or conclusion in this opinion.

App. 27
and intravenous solutions, (iii) professional services
and supplies obtained from outside providers for physical therapy, reference laboratory, blood bank, and
radiology; and (iv) dietary and linen services and
supplies. (Tr. at [10-1] at 394, 719). The total variable
costs were subtracted from the FY 2006 Program Inpatient Operating Cost as follows:
FY 2006 Program Inpatient
Operating Cost
Less Variable Costs for FY 2006
Net FY 2006 Fixed/Semifixed Costs

$5,698,829
-664,994
$5,033,835

The MAC then took the net costs and substituted it
into the line 4 amount from Unity’s calculations as follows:
Net FY 2006 Fixed/Semifixed Costs
Less FY 2006 DRG Payment
Net VDA Payment

$5,033,835
-4,957,521
$ 76,314

(Tr. [10-2] at 716). Unity disagreed with the MAC’s calculations resulting in a lesser VDA and appealed the
MAC’s decision to the PRRB.
B. Lakes Regional Healthcare
Lakes Regional Healthcare (“Lakes”) operates a
49-bed general acute-care facility in Spirit Lake, Iowa.
Lakes is also certified to provide inpatient hospital services under the Program and has qualified for and
been reimbursed by CMS as an SCH. It has the same

App. 28
designated intermediary (MAC) as Unity – Wisconsin
Physician Services. (Tr. [13-1] at 49).
Between fiscal year (FY) 2005 and FY 2006 Lakes
experienced a 10.42% decline in inpatient discharges.
(Tr. [13-1] at 49). The MAC has stipulated the decline
was due to circumstances beyond Lakes’ control. (Id.)
Lakes received its NPR for FY 2006 on February 12,
2008 and submitted a request for VDA of $1,184,574.
(Id.) Lakes calculated its request as follows:
FY 2005 Program Operating Cost 1
PPS Update Factor
2
FY 20056 Maximum Allowable Cost 3
FY 2006 Program Inpatient
4
Operating Cost
FY 2006 DRG Payment
5
FY 2006 Payment Adjustment
6

$5,317,296
x
1.037
$5,514,036
$4,923,186
- 3,738,612
$1,184,574

(Tr. [13-2] at 530).
The MAC adjusted the reported costs by reclassifying certain costs as “variable,” specifically, Unity’s
costs for (i) billable medical supplies associated with
anesthesia, laboratory, oncology and emergency departments and respiratory therapy services, (ii) billable drugs and intravenous solutions, (iii) professional
services and supplies obtained from outside providers
for physical therapy, speech therapy, blood bank, and
radiology; and (iv) dietary and linen services and
6

The Court, based on the examples given in the PRM, believes that this reference should actually be FY 2006 Maximum
Allowable Cost (see p.5-6 supra), but that issue does not impact
the analysis or conclusion in this opinion.

App. 29
supplies. (Tr. at [13-1] at 232). The total variable costs
was subtracted from the FY 2006 Program Inpatient
Operating Cost as follows:
FY 2006 Program Inpatient
Operating Cost
Less Variable Costs for FY 2006
Net FY 2006 Fixed/
Semifixed Costs

$4,923,186
- 1,360,118
$3,563,068

The MAC then took the net costs and substituted it
into the line 4 amount from Lake’s calculations as follows:
Net FY 2006 Fixed/Semifixed Costs
Less FY 2006 DRG Payment
Net VDA Payment

$ 3,563,068
- 3,738,612
$ - 175,544

(Tr. [13-2] at 374). On this basis, the MAC denied Lakes
a VDA. (Id. at 371-73). Lakes appealed the MAC’s decision to the PRRB.
C. PRRB Proceedings
The PRRB held hearings on these cases on February 2 and 3, 2012, and incorporated the transcript from
the Lakes case into the Unity case. Both hospitals argued that the MAC’s exclusion of “variable costs” was
contrary to statute and regulation and, if the exclusion
was permissible, the costs eliminated were fixed or
semifixed and should not have been excluded. (Tr. [101] at 345-362; [13-2] at 681-698).

App. 30
During the Unity hearing on February 2, 2012,
Dean Steiner, a Medicare auditor at the MAC, testified
that in late 2008 his manager gave him the task of
looking at VDAs because “we were seeing some very
high dollar amounts in reviewing that process.” (Tr.
[10] at 261). Steiner understood that in the past the
MAC had not previously removed variable costs in processing VDA requests. (Id. at 273). There had been no
change in the regulations nor any change in the manual. (Id.) Mr. Steiner understood the purpose of the
statute and regulation was “to ensure that the Provider is fully compensated for their fixed and semifixed costs so that they could continue operating as
a hospital . . . no matter how many patients walk
through the door.” (Id. at 262). After looking at the statute and regulations, Mr. Steiner testified that he had
determined the MAC had not been handling variable
costs properly and that the only costs the MAC was to
consider were fixed and semi-fixed costs. (Id. at 263,
274). He testified the MAC asked CMS for guidance
but they never received a response. (Id.)
Because neither Unity nor Lakes had identified
variable costs in their submissions, Mr. Steiner and the
MAC reviewed the trial balances submitted with the
hospitals’ cost reports and “identified those accounts or
sub-accounts that in our judgment would vary with
utilization.” (Tr. [10] at 264). To the extent an account
may have included rental equipment or salaries, Steiner did not include those accounts, taking what he testified was a “very conservative approach in identifying
what [he] thought were variable costs.” (Id. at 265).

App. 31
After coming up with total variable costs, they used a
factoring schedule and grouped the adjustments by
cost center, then reran the cost report to compute a revised Medicare operating cost. (Id.) Mr. Steiner testified some providers may submit variable costs with
their requests; some would submit variable costs when
the MAC requested; and some would not provide any
variable cost estimates. (Id. at 266). The PRM manual
defined variable costs as “those that vary based on utilization.” (Id. at 271). He testified that physical therapy services were considered variable since they were
usually paid on a per service or percentage of charge
basis; medical supplies and drugs because they were
charged to particular patients. (Id.) His assumption
that drugs varied with patient volume was only a
“commonsense assumption” and not based on any
studies or any reference book. (Id. at 270). He agreed
that hospital management had no control over physician orders of various things as blood or drugs. (Id. at
275).
On July 10, 2014, the PRRB issued its decision in
both cases. (Tr. [10] at 44-63; [13-1] at 44-64). It found
the MAC was authorized to eliminate variable costs
to determine total fixed operating costs, but that
the MAC had improperly calculated the adjustment
amount and the hospitals were entitled to the VDA
amounts they had requested. (Id. [10] at 63; [13-1] at
64). Specifically, the PRRB found that the net payment
adjustment requested by the hospitals was the ceiling
for payment and that since the fixed costs of each (after
exclusion of the variable costs) exceeded that “ceiling,”

App. 32
both hospitals were entitled to the ceiling amount. (Id.
[10] at 62; [13-1] at 63).
The Administrator notified the parties the PRRB
decisions would be reviewed. (Tr. at [10] at 28; [13-1] at
28). The parties and the Director of the CMS Division
of Acute Care submitted comments to the Administrator, who after review modified the PRRB decisions, affirming in part and reversing in part. (Tr. [10] at 2-11;
[13-1] at 2-11). In the September 4, 2014, decisions the
Administrator affirmed the PRRB finding that the
MAC correctly identified and removed variable costs,
but reversed the PRRB’s finding on the methodology
for calculating the VDA amount, stating the MAC’s
methodology was proper. (Id. [10] at 8-9; [13-1] at 8-9).
The hospitals’ complaints seeking judicial review were
filed October 30, 2014.
III. STANDARD OF REVIEW
This Court’s review of Medicare reimbursement
decisions is limited to reviewing the administrative
record under the Administrative Procedures Act. 42
U.S.C. § 1395oo(f)(1); 5 U.S.C. 706. The Court only
may “hold unlawful and set aside agency action, findings and conclusions” which it finds to be “arbitrary,
capricious, an abuse of discretion or otherwise not in
accordance with law” or “unsupported by substantial
evidence.” 5 U.S.C. § 706(2)(A), (E). The agency’s interpretation of statutes and regulations is entitled to
“substantial deference.” Siebrasse v. USDA, 418 F.3d
847, 851 (8th Cir. 2005). “However, an interpretation

App. 33
which is ‘plainly erroneous or inconsistent with the
regulation’ must be reversed.” Columbus Cmty. Hosp.,
Inc. v. Califano, 614 F.2d 181, 185 (8th Cir. 1980) (quoting Bowles v. Seminole Rock & Sand Co., 325 U.S. 410,
414, (1945); Appelwick v. Hoffman, 540 F.2d 404, 406
(8th Cir. 1976)).
[T]he APA requires an agency to provide more
substantial justification when “its new policy
rests upon factual findings that contradict
those which underlay its prior policy; or when
its prior policy has engendered serious reliance interests that must be taken into account. It would be arbitrary and capricious to
ignore such matters.”
Perez v. Mortgage Bankers Ass’n, ___ U.S. ___, 135 S. Ct.
1199, 1209 (2015) (quoting F.C.C. v. Fox Television Stations, Inc., 556 U.S. 502, 515 (2009) (citation omitted)).
IV. LEGAL ANALYSIS
A. Arbitrary/Capricious/Contrary to Applicable
Law
The hospitals’ challenge to the Secretary/Administrator’s decision is three-fold: (1) the Secretary ignored the plain language of the VDA statute and
regulation; (2) the decision directly contradicts the Secretary’s own interpretive guidelines on the VDA regulation; and (3) the Secretary’s decision is illogical. The
Secretary responds that exclusion of variable costs
is supported by the plain language of the statute, regulation and guidelines, and the methodology applied

App. 34
accomplishes the purposes of the statute. Interestingly,
both sides argue the language of the statute, regulation and PRM is plain, plaintiff arguing the Secretary
did not follow them, the Secretary arguing he did.
The issue raised is a matter of first impression in
this district. The parties have brought to the Court’s
attention only one other federal court case dealing
with the issues at hand: Magistrate Judge Mahoney’s
Report and Recommendation in St. Anthony Regional
Hospital v. Hargan, No. 5:16-cv-3117-LTS (N.D. Iowa
Dec. 29, 2017).
The statute states the VDA is intended to compensate “medicare dependent, small rural hospital(s)”
for fixed costs they incur when they have a qualifying decrease in inpatient cases. The statute does
not reference “semi-fixed” or “variable” costs. 42 U.S.C.
§ 1395ww(d)(5)(G)(iii). The implementing regulation
expands reimbursable costs to include “semi-fixed”
costs. 42 C.F.R. § 412.92(e)(3). “Variable costs” are not
referenced in either. Both the statute and regulation,
however, reference “necessary core staff and services”
as being included in “fixed costs.”
(i) In determining the adjustment amount,
the intermediary considers –
(A) The individual hospital’s needs
and circumstances, including the reasonable cost of maintaining necessary core staff and services in view of
minimum staffing requirements imposed by State agencies;

App. 35
(B) The hospital’s fixed (and semifixed) costs, other than those costs
paid on a reasonable cost basis under
part 413 of this chapter; and . . .
42 C.F.R. § 412.92(e)(3). “Variable costs” are separately
discussed in the history accompanying publication of
the original interim rule:
Variable costs, on the other hand, are those
costs for items and services that vary directly
with utilization. However, in a hospital setting many costs are neither perfectly fixed nor
perfectly variable, but are semifixed. Semifixed costs are those costs for items and services that are essential for the hospital to
maintain operation but will also vary with
volume. For the purposes of this adjustment,
many semifixed costs, such as personnel related costs, may be considered as fixed on a
case by case basis. An adjustment will not be
made for truly variable costs, such as food and
laundry services.
48 FR 39752, 39781 (Sept. 1, 1983). PRM 15-1
§ 2810.1(B) tracks the language from the Federal Register, with the addition of “food and laundry costs” as
examples of costs which vary with utilization.
When Congress made the switch to the IPPS system, the Health Care Financing Administration (HCFA)7
promulgated new rules to implement the switch “from
a cost-based, retrospective reimbursement system to a

7

Now CMS.

App. 36
diagnosis specific prospective payment system.” 48 FR
39752, 39752. HCFA noted as reasons for the change:
Numerous studies have highlighted the dynamic growth in health care spending in the
United States, particularly the rapid increase
in Medicare program hospital costs. These
cost issues have been, for many years, a focal
point of discussion and action on the part of
all levels of government and various sections
of the health care industry. Of concern to us is
that these increasing Medicare expenditures
constrain the ability of the Federal government to fund other needed programs.
...
A third factor is Medicare’s current cost reimbursement system, which by its very nature
tends to aggravate this cost problem. The economic incentives of this system contribute to
cost increases by rewarding hospitals and
physicians who increase utilization and thus
their allowable reimbursable costs. There is
little incentive for hospitals and physicians to
operate more efficiently as all allowable costs
are fully reimbursed.
...
As a means of restraining hospital expenditure growth, prospective payment places hospitals at risk in terms of the management of
their operations and the use of their resources. Thus, we believe that this system will
begin to address some of the serious problems
inherent in the present cost reimbursement

App. 37
payment methodology and, therefore, will allow us to better manage the Medicare program and preserve the integrity of the trust
funds.
48 FR 39752, 39804-05. Given the above expressed legislative goal of restraining the growth of hospital expenditures and passing some of the burden (and risk)
of cost management on to the hospitals, the Secretary’s
interpretation of the statute and the regulation as requiring qualifying hospitals be compensated only for
fixed (or semifixed) costs is not inconsistent with the
plain language of the statute or with the legislative intent.
The hospitals next argue the Secretary’s decision
contradicts the PRM and he has failed to give a “reasoned basis for failing to comply with [his] own express,
longstanding interpretive rules governing calculation
of the VDA payment.” (Pl. Brief [19-1] at 18). They argue the MAC’s explanation “that it was handling more
requests and requests for larger amounts” coupled
with a 2004 letter from CMS instructing the MAC
to include variable costs in the VDA calculation (with
respect to the request of another provider) and the
instructions in the PRM itself demonstrates the arbitrary and capricious nature of the Secretary’s decision
to exclude variable costs in the 2006 calculations. (Id.
at 19-20).
Taking the last argument first, the instructions in
the PRM are ambiguous. The PRM examples do not
explain what makes up the amount in line 4 of the

App. 38
examples – FY Program Inpatient Operating Cost –
the hospitals assume it is the total cost for the fiscal
year. Line 4 could just as readily be, as the Secretary
has now determined, the net costs for the fiscal year
after variable costs are subtracted. The hospitals do
not cite the Court to anything in the PRM which suggests the Line 4 amounts can only be or must be a hospital’s total FY inpatient costs, both fixed and variable.
In any event, the PRM is not a “notice-and-comment”
rule covered by the APA, instead, it falls into the category of “interpretative rules, general statements of
policy or rules of agency organization, procedure or
practice.” Perez, ___ U.S. at ___, 135 S. Ct. at 1203-04;
5 U.S.C. § 553(b)(A). As such, it “ ‘do[es] not have the
force and effect of law and [is] not accorded that weight
in the adjudicatory process.’ ” Perez, ___ U.S. at ___, 135
S. Ct. at 1204 (quoting Shalala v. Guernsey Mem’l
Hosp., 514 U.S. 87, 99 (1995)). An agency may change
its interpretation “if the revised interpretation is consistent with the underlying regulations.” Perez, ___
U.S. at ___, 135 S. Ct. at 1209 (quoting Petitioner’s
Brief in 13-1052 at 44). The Secretary’s determination
is consistent with language accompanying the 1987
amendments to the regulations:
We believe that this language makes it clear
that a hospital that has continued to receive
payments under the prospective payment system that are greater than its inpatient operating costs, even though there has been a
decline in occupancy, is not entitled to receive
a payment adjustment. Hospitals that receive
payments that are greater than the hospitals’

App. 39
Medicare inpatient operating costs have been
“fully compensated” for those costs by the prospective payment system. Consequently, we
believe that no further adjustment should be
granted to these hospitals.
52 Fed. Reg. 33034, 33049, Section D. Payments to Sole
Community Hospitals (September 1, 1987).
As for the 2004 letter from CMS instructing the
MAC to include variable costs in a VDA for another
provider, such a direction is entirely consistent with
the directive in 42 C.F.R. § 412.108(d)(3)(i) that “[i]n
determining the adjustment amount, the [MAC] consider[ ] . . . [t]he individual hospital’s needs and circumstances. . . .” See 52 Fed. Reg. 33034, 33049 (“We
determine on a case-by-case basis whether an adjustment will be granted and the amount of that adjustment.”). Clearly, the VDA determinations are made
on an individualized basis and in the 2004 case, the
provider itself “excluded costs relating to food, drugs
and supplies” when it submitted its SCH payment
adjustment application. (Tr. [10-2] at 724). It is not determinable from the 2004 determination letter what
variable costs CMS determined would be appropriate
to include with respect to the provider involved.
The MAC’s explanation for exclusion of variable
costs came via the testimony of Mr. Steiner, who testified that in late 2008 his manager directed him to look
at the VDAs “because “we were seeing some very high
dollar amounts in reviewing that process.” (Tr. [10] at
261). Mr. Steiner understood that in the past the MAC
had not removed variable costs in processing VDA

App. 40
requests. (Id. at 273). After looking at the statute and
regulations, Mr. Steiner testified that he had determined the MAC had not been handling variable costs
properly and that the only costs the MAC was to consider were fixed and semi-fixed costs. (Id. at 263, 274).
At hearing, counsel for the hospitals argued that
because hospitals cannot control what tests and medications physicians might order which the hospitals
must then provide, those “uncontrollable” costs qualify
as “fixed” costs, in line with guidance in the PRM that
“Fixed costs are those costs over which management
has no control.” Again, the PRM does not have the force
and effect of law and the Court finds the language in
the PRM defining “fixed costs” to be overly simplistic,
given the complicated cost accounting involved. Counsel also pointed to provisions in the Iowa Administrative Code requiring hospitals to provide proper dietary
services and to Medicare’s formulary requirements as
supporting a finding medications and food should be
considered fixed costs. Mr. Steiner testified that when
he reviewed the hospitals’ trial balances submitted
with their cost reports, he went through and identified
accounts or sub-accounts that would vary with utilization, such as medications and supplies charged to patients, outside laboratory tests, radiology and therapy
services, but excluded sub-accounts for professional
fees and equipment rentals as fixed costs. (Tr. [10] at
264-265). This is consistent with the statute which
“also requires that the adjustment amount include the
reasonable cost of maintaining necessary core staff
and services. HCFA will review the determination of

App. 41
core staff and services based on an individual hospital’s needs and circumstances; e.g., minimum staffing requirements imposed by State agencies.” 48 FR
39752-01, 39781-82.
The hospitals argued fewer patients does not necessarily translate into less patient utilization if the
patients are sicker. As the Secretary pointed out, however, there is nothing in the record to suggest the hospitals had “sicker” patients during the relevant time
period.
The Court finds the following: The regulations did
not change nor did the facts underlying their promulgation – the Secretary discovered the Department had
made a mistake in how it had been calculating VDA
payments under the existing regulations. The government was paying out increasing sums to hospitals,
payments which covered the hospitals’ fixed and variable inpatient costs, a scenario not contemplated by the
statute or the intent of the IPPS system: “[to] restrain[ ]
hospital expenditure growth, prospective payment
places hospitals at risk in terms of the management
of their operations and the use of their resources.”
48 FR 39752, 39804-05. The IPPS was not intended to
make qualifying hospitals whole, only to “full compensate the hospital for the fixed costs it incurs . . . including the reasonable cost of maintaining necessary core
staff and services.” 42 U.S.C. § 1395ww(d)(5)(D)(ii),
(d)(5)(G)(iii). The Secretary took steps to correct the
Department’s error but did not change the regulations,
only the interpretation of the existing regulations. See
42 U.S.C. § 1395ww(d)(5)(I) (Secretary authorized “to

App. 42
provide by regulation for such other exceptions and
adjustments to such payment amounts under this
subsection as the Secretary deems appropriate”). The
steps taken, to exclude variable costs from VDA calculations, are consistent with the statutory and regulatory language and the purpose of the IPPS system. Cf.
Guernsey, 514 U.S. at 94-95 (Secretary’s decision that
regulation did not require reimbursement according to
GAAP was a “reasonable regulatory interpretation”
to which deference was owed); Bob Jones University v.
United States, 461 U.S. 574, 596 (1983) (“In an area as
complex as the tax system, the agency Congress vests
with administrative responsibility must be able to exercise its authority to meet changing conditions and
new problems.”). The Secretary’s decision was not arbitrary, capricious or contrary to applicable law.
B. Substantial Evidence
Alternatively, plaintiffs argue the Secretary’s decision was not supported by substantial evidence and
that the record demonstrated the disputed costs were
“at a minimum, semifixed” or “were necessary and essential to maintain core services.” (Pl. Brief [19-1] at
19, 26). Defendant responds that both the PRRB and
the Secretary agreed with the MAC the costs were variable in accordance with traditional accounting principles. (Def. Brief [25] at 10).
In support of their argument, plaintiffs point to
testimony by Mr. Steiner that his statement “[i]f you
have fewer patients, it’s most likely you’re going to

App. 43
have fewer drugs” was a “commonsense assumption”
and not based on empirical studies. (Tr. [10] at 270).
Mr. Steiner testified that the PRM defined “variable
costs as those that vary based on utilization” and in
response to a query whether drugs could be considered
“semi-fixed costs” testified that drugs chargeable to a
particular patient was utilization and that “[a]s there
are fewer drugs prescribed by physicians, fewer drugs
provided by the hospital, the cost would go down.
There’s less utilization of chargeable drugs.” (Id. at
271). Plaintiffs did not, however, present any evidence
regarding the costs excluded by Mr. Steiner, only argument and inferences from cross-examination of witnesses on general cost topics. Plaintiffs did not present
any empirical studies to contradict Mr. Steiner’s “commonsense” assumptions. Plaintiffs did not bring in any
witnesses to explain why the costs excluded were in
fact necessary and essential to the hospitals’ core services. In fact, outside of the various cost statements included in the record, the Court cannot make any
determination about the validity or invalidity of Mr.
Steiner’s assumptions.
On the record before the Court, plaintiffs have not
carried their burden of proof on their claim the Secretary’s decision is not supported by substantial evidence.
C. Newly Discovered Authority
While this matter has been pending, CMS posted
notice of a proposed rule change on April 28, 2017,

App. 44
which plaintiff Lakes Regional has brought to the
Court’s attention.8 The proposed rule change directly
addresses the VDA calculation methodology discussed
above, albeit prospectively only for cost reporting
periods beginning on or after October 1, 2017. Federal
Register, Vol. 82, No. 081, Part II, 82 FR 19796, 19935.
Acknowledging the prospective nature of the rule change,
Lakes Regional argues it “clearly demonstrate[s] that
the Secretary’s decision in the instant case was arbitrary, capricious, and contrary to the intent of the VDA
statute and the purpose of the VDA payments. . . .” (Pl.
Supp. Brief [33-1] at 4). Defendant argues the proposed
rule does not apply and if it does, explains why it does
not help plaintiffs. Defendant has provided the Final
Rule dated August 14, 2017 for the Court’s consideration. 82 Fed. Reg. 37990, 2017 WL 3453563 (Aug. 14,
2017). (Def. Resp. [37-1], Ex. A) (“Ex. A”).
The Court does not reach the issue how the Proposed Rule or Final Rule apply to plaintiffs’ VDA calculations as it agrees neither have any effect in the
present case. With respect to the Proposed Rule, under
Eighth Circuit law, “proposed regulations . . . have no
legal effect.” United States v. Springer, 354 F.3d 772,
776 (8th Cir. 2004) (quoting Sweet v. Sheahan, 235 F.3d
80, 87, 2d Cir. 2000)). As for the Final Rule, by its terms
it applies to “cost reporting periods beginning on or after October 1, 2017.” (Ex. A at 14) (“We also do not
agree that we should apply our proposed methodology
8

Plaintiff Unity HealthCare has also supplemented their
briefing with reference to the amended regulation. (Pl. Supp.
Brief [33-1]).

App. 45
retroactively.” (Id. at 13)). Plaintiff does not specifically
seek retroactive application of the Final Rule but argues it is evidence the Secretary’s application of the
VDA methodology in the present case was arbitrary,
capricious, and an abuse of discretion. (Pl. Brief [33-1]
at 4). “The mere fact that regulations were modified,
without more, is simply not enough to demonstrate
that the prior regulations were invalid.” LaRouche v.
Fed. Election Comm’n, 28 F.3d 137, 141 (D.C. Cir. 1994).
See also Nat’l Cable & Telcomms. Ass’n v. Brand X Internet Servs., 545 U.S. 967, 981-82 (2005) (“An initial
agency interpretation is not instantly carved in stone.
On the contrary, the agency . . . must consider varying
interpretations and the wisdom of its policy on a
continuing basis . . . ,” quoting Chevron, USA v. Nat’l
Resources Defense Council, Inc., 467 U.S. 837, 863-64
(2008)); Smiley v. Citibank, 517 U.S. 735, 741-42 (1996)
(“change is not invalidating”). The fact that the Secretary has made modifications to VDA methodology to be
applied to future cases has no effect on the Court’s
findings in the present case.
The Court also has reviewed Magistrate Judge
Mahoney’s Report and Recommendation in St. Anthony Regional Hospital v. Hargan, No. 5:16-cv-3117LTS (N.D. Iowa Dec. 29, 2017). The arguments considered in that Report and Recommendation correspond
with those made in this case. The Court agrees with
Judge Mahoney’s analysis.

App. 46
V.

CONCLUSIONS OF LAW AND ORDER FOR
JUDGMENT

The Court finds the Secretary’s decision regarding
VDA payments to plaintiff hospitals was not arbitrary,
capricious or contrary to law and was supported by
substantial evidence. The Secretary’s decision is affirmed and plaintiffs’ Complaint is dismissed.
IT IS SO ORDERED.
Dated this 30th day of January, 2018.
/s/ Helen C. Adams
Helen C. Adams
Chief U.S. Magistrate Judge

App. 47
CENTERS FOR MEDICARE
AND MEDICAID SERVICES
Order of the Administrator
In the case of:

Claim for:

Unity Healthcare
Muscatine, Iowa

Reimbursement
Determination
for Period Ending

Provider

June 30, 2016

vs.
Blue Cross Blue Shield
Association/Wisconsin
Physicians Service (MAC)
Intermediary

Review of:
PRRB Dec.
No. 2014-D15
Dated: July 10, 2014

This case is before the Administrator, Centers for Medicare & Medicaid Services (CMS), for review of the decision of the Provider Reimbursement Review Board
(Board). The review is during the 60-day period in
§1878(f )(1) of the Social Security Act (Act), as amended
(42 USC 1395oo(f )). The parties were notified of the
Administrator’s intention to review the Board’s decision. Comments were received from CMS’ Center for
Medicare (CM) requesting a partial reversal of the
Board’s decision. Comments were also received from
the Provider requesting a partial reversal of the
Boards decision. Accordingly, this case is now before
the Administrator for final agency review.

App. 48
ISSUE AND BOARD DECISION
The issue was whether the Medicare Administrative
Contractor (MAC), properly calculated the Medicare
dependent hospital volume decrease adjustment (VDA)
for the Provider, for fiscal year 2006, by excluding certain variable and semi-fixed costs.
The Board affirmed the Intermediary’s determination
in regard to variable costs and found that the Medicare
Administrative Contractor (MAC) correctly identified
and eliminated variable costs in determining that the
Provider’s fixed costs for FY 2006 was $5,033,835 for
purposes of the determination on the Provider’s request for an Sole Community Hospitals (SCH) volume
decrease adjustment.
Regarding the volume decrease adjustment amount,
the Board found that the MAC improperly calculated
the low volume adjustment payment for the Provider.
The Provider is subject to the “not to exceed” limitation
imposed by the controlling regulation found at 42 CFR
412.108(d)(3) and the application of PRM 15-1 Section
2180.1. The Provider should receive a volume decrease
adjustment payment in the amount $741,308. Accordingly, the Board modified the MAC’s calculation of the
low volume adjustment payment.
SUMMARY OF COMMENTS
CM submitted comments stating that it agreed with the
Board that the MAC properly identified and eliminated
variable costs. CM disagreed with the Board regarding

App. 49
its finding that the MAC improperly calculated the
VDA payment for the Provider. CM recommended that
the Administrator reverse the Board’s decision and uphold the MAC’s determination in regard to the VDA
payment calculation.
The Provider submitted comments stating that it disagreed with the Board’s finding that the MAC properly
identified and eliminated variable costs. The Provider
recommended that the Administrator reverse the Board’s
decision and uphold the MAC’s determination in regard to the exclusion of VDA payments. The Provider
agreed with the Board regarding its finding that the
MAC improperly calculated the VDA payment for the
Provider.
The Intermediary submitted comments which incorporated CM’s comments. The Intermediary also requested
that the Administrator reverse the Board’s VDA calculation methodology, while affirming the Board’s decision to remove variable costs.
BACKGROUND AND DISCUSSION
The entire record, which was furnished by the Board,
has been examined, including all correspondence, position papers, and exhibits. The Administrator has reviewed the Board’s decision and finds that the Board’s
decision should be modified. The Board’s decision on
the calculation of the VDA is not supported by the controlling regulations, policies and precedents.

App. 50
The Provider, Unity Healthcare is a rural, inpatient
prospective payment system (IPPS) hospital located
in Muscatine, Iowa and the Provider’s fiscal year (FY)
ends June 30th. At all relevant times, the Provider
qualified and was reimbursed as an Sole Community
Hospitals (SCH).
From FY 2005 to FY 2006, the Provider experienced
a 16.89 percent decline in inpatient discharges. The
MAC agrees with the Provider that the decline was due
to external circumstances beyond the Provider’s control.1 On December 7, 2007, the Provider received its
notice of program reimbursement (NPR) for FY 2006.2
Shortly thereafter, the Provider submitted a request to
the MAC for an SCH volume decrease adjustment of
$741,308.
In reviewing this low volume adjustment request, the
MAC adjusted the Provider’s reported expenses by
classifying certain costs, specifically, billable medical
supplies, billable drugs, IV drugs, third-party goods
and services, including physical therapy, lab, blood and
radiology, as variable costs and excluded those reclassified costs from the low volume adjustment calculation.3 On July 22, 2009, the MAC responded to the
Provider’s request with a final determination that
granted the Provider an SCH volume decrease adjustment of $76,314 for FY 2006.
1
2
3

at 13.

MAC Final Position Paper at 3.
Provider Exhibit P-1.
Provider Exhibits P-2 to P-6; Transcription of Oral Hearing

App. 51
The Administrator finds that the MAC correctly identified and eliminated variable cost in determining that
the Provider’s fixed costs for FY 2006 for purposes of
the Provider’s request for an SCH volume decrease adjustment. Furthermore, the MAC properly calculated
the low volume adjustment payment for the Provider
since the Provider is subject to the “not to exceed” limitation imposed by the controlling regulation and PRM
instructions.
The operating costs of inpatient hospital services are
reimbursed by Medicare primarily through the IPPS.
The IPPS provides Medicare payment for hospital inpatient operating and capital related costs at predetermined, specific rates for each hospital discharge.
The IPPS also allows special treatment for facilities
that qualify as “Sole Community Hospitals or SCHs.”
The main statutory provisions governing SCHs are located at Section 1886(d)(5)(D) of the Social Security
Act (the “Act”) and they define an SCH as a facility
that: (1) is located more than 35 road miles from another hospital; (2) by reason of factors such as the time
required for an individual to travel to the nearest alternative source of appropriate inpatient care, location, weather conditions, travel conditions, or absence
of other like hospitals, is the sole source of inpatient
hospital services reasonably available to individuals in
a geographic area who are entitled to benefits under
part A; or (3) is located in a rural area that has been
designated as an essential access community hospital.

App. 52
Section 1886(d)(5)(D)(ii) of the Act authorizes the Secretary of DHHS to adjust the payment of SCHs that
incur a decrease in discharges of more than 5 percent
from one cost reporting year to the next, stating:
In the case of a sole community hospital that
experiences, in a cost reporting period compared to the previous cost reporting period, a
decrease of more than 5 percent in its total
number of inpatient cases due to circumstances beyond its control, . . . as may be necessary to fully compensate the hospital for the
fixed costs it incurs in the period in providing
inpatient hospital services, including the reasonable cost of maintaining core staff and services.
The regulations implementing this statutory adjustment are located at 42 CFR 412.92(e). In particular,
subsection (e)(1) specifies the following regarding low
volume adjustment:
The intermediary provides for a payment
adjustment for a sole community hospital for
any cost reporting period during which the
hospital experiences, due to circumstances
[beyond the hospital’s control] a more than
five percent decrease in its total discharges of
inpatients as compared to its immediately
preceding cost reporting period.
Once an SCH demonstrates that it has suffered a qualifying decrease in total inpatient discharges, the intermediary must determine the appropriate amount, if
any, due to the provider as an adjustment. In this

App. 53
regard42 CFR 412.92(e)(3) of the controlling regulation specifies the following regarding the determination of low volume adjustment amount:
(3) The intermediary determines a lump
sum adjustment amount not to exceed the difference between the hospital’s Medicare inpatient operating costs and the hospital’s total
DRG revenue for inpatient operating costs
based on DRG-adjusted prospective payment
rates for inpatient operating costs. . . .
(i)

In determining the adjustment amount,
the intermediary considers –
(A) The individual hospital’s needs
and circumstances, including the
reasonable cost of maintaining
necessary core staff and services
in view of minimum staffing requirements imposed by State agencies;
(B) The hospital’s fixed (and semi-fixed)
costs, other than those costs paid
on a reasonable cost basis under
part 413 of this chapter; and
(C) The length of time the hospital
has experienced a decrease in utilization.

In addition to the controlling regulation, CMS also provides interpretive guidelines in the Provider Reimbursement Manual, CMS Pub. No. 15-1 (PRM 15-1). PRM 15-1
is intended to ensure that Medicare reimbursement
standards “are uniformly applied nationally without

App. 54
regard to where covered services are furnished.4 While
PRM 15-1 does not specifically address MDH low volume adjustments, it does address SCH low volume adjustments at PRM 15-1 Section 2810.1. As the criteria
for SCH and MDH low volume adjustments are identical, the PRM 15-1 guidance on SCH low volume adjustment is applicable to MDH low volume adjustments.
Specifically, Section 2810.1 provides guidance to assist
MACs in the calculation of volume decrease adjustments for sole community hospitals (SCHs). In this regard, Section 2810.1(B) states the following regarding
the amount of a low volume adjustment:
B. Amount of Payment Adjustment. Additional payment is made to an eligible SCH for
fixed costs it incurs in the period in providing
inpatient hospital services including the reasonable cost of maintaining necessary core
staff and services, not to exceed the difference
between the hospital’s Medicare inpatient operating cost and the hospital’s total DRG revenue.
Fixed costs are those costs over which management has no control. Most truly fixed costs,
such as rent, interest, and depreciation, are
capital-related costs and are paid on a reasonable cost basis, regardless of volume. Variable
costs, on the other hand, are those costs for
items and services that vary directly with utilization such as food and laundry costs.

4

See CMS Pub. 15-1, Foreward.

App. 55
In a hospital setting, however, many costs are
neither perfectly fixed nor perfectly variable,
but are semi-fixed. Semi-fixed costs are those
costs for items and services that are essential
for the hospital to maintain operation but also
vary somewhat with volume. For purposes of
this adjustment, many semi-fixed costs, such
as personnel-related costs, may be considered
as fixed on a case-by-case basis.
In evaluating semi-fixed costs, the MAC considers the length of time the hospital has
experienced a decrease in utilization. For a
short period of time, most semi-fixed costs are
considered fixed. As the period of decreased
utilization continues, we expect that a costeffective hospital would take action to reduce
unnecessary expenses. Therefore, if a hospital
did not take such action, some of the semifixed costs may not be included in determining the amount of the payment adjustment.
PRM 15-1 Section 2810.1(D) provides the following instruction regarding the processing of an adjustment
request:
D. Determination on Requests. The MAC reviews a hospital’s request for additional payment for completeness and accuracy. If any of
the required documentation is missing, incomplete, or inaccurate, the MAC requests the
needed information. The MAC makes a determination on the request and notifies the hospital of the decision within 180 days of the
date the MAC receives all required information.

App. 56
The payment adjustment is calculated under
the same assumption used to elevate core
staff, i.e. the hospital is assumed to have
budgeted based on prior year utilization and
to have had insufficient time in the year in
which the volume decrease occurred to make
significant reductions in cost. Therefore, the
adjustment allows an increase in cost up to
the prior year’s total Program Inpatient Operating Cost (excluding pass-through costs), increased by the PPS update factor.
The core dispute in this case centers on the application
of the statute to the proper classification and treatment of costs and the proper calculation of the amount
for the low volume adjustment. The Administrator’s
examination of the governing statutes and implementing regulations and guidance clearly recognize three
categories of costs, i.e., fixed, semi-fixed and variable.
The guidance only considers fixed and semi-fixed costs
within the calculation of the volume adjustment but
not variable costs.
The Board properly accepted the MAC’s determination
and elimination of variable costs for FY 2006. The
MAC’s exclusion of the Provider’s billable medical supplies, billable drugs and IV solutions, professional services obtained from third party providers, and dietary
and linen expenses as variable was proper and consistent with the regulation, guidance and intent of the
adjustment.
The treatment of variable cost within the calculation
of the volume decrease adjustment is well established.

App. 57
The plain language of the relevant statute and regulation, Section 1886(d)(5)(G)(iii) and 42 CFR 412.108(d),
make it clear that the VDA is intended to compensate
qualifying hospitals for their fixed costs, not their
variable costs. This position is also supported by past
decisions, such as Greenwood County, PRRB Dec. No.
2006-D43, where the Board correctly eliminated variable costs from the calculation. Therefore the Administrator affirms the Board’s decision regarding the
elimination of variable costs from the Provider’s VDA
payment adjustment request.
Regarding the methodology and proper calculation of
the Provider’s payment adjustment, the Administrator
finds that the Board improperly calculated the Provider’s adjustment and reverses that portion of the
Board’s decision. The VDA calculation methodology
used by the Board is in direct contradiction to the statute and CMS’ regulations and guidance. The Board’s
methodology uses a VDA payment equal to the hospital’s fixed costs not to exceed the difference between
the hospital’s total operating costs and its DRG payment as follows:
Board’s Calculation of
Payment Adjustment:
Provider’s total operating costs: $5,698,829
Net Variable costs:
$ 664,994
Provider’s fixed costs/
VDA Payment Amount:
$5,033,835

App. 58
Per the Board’s methodology, the Provider’s VDA is
equal to its fixed costs of $5,033,835 not to exceed the
ceiling:
Board’s Calculation of the Ceiling:
Provider’s total operating costs: $5,698,829
Provider’s DRG payment:
$4,957,521
Ceiling:
$ 741,308
The Board’s calculation incorrectly concludes that the
payment amount for the VDA is $5,033,835 subject to
the ceiling of $741,308, resulting in a VDA payment of
$741,308. The Administrator finds that the Board
properly calculated the ceiling amount, however, the
MAC properly calculated the correct payment adjustment by following the controlling statute, regulations
as also reflected in the prior Board decision in Greenwood, cited supra, as follows:
MAC’s Calculation of
Payment Adjustment:
Provider’s total operating costs:
Net Variable costs:
Provider’s fixed costs:
Provider’s DRG payment:
VDA Payment Amount:

$5,698,829
$ 664,994
$5,033,835
$4,957,521
$ 76,314

The MAC applied the proper methodology which represents that the Provider’s VDA is equal to the difference between its fixed and semi-fixed costs and its
DRG payment, which in this case equates to $76,314,
subject to the ceiling of $741,308.

App. 59
The payment amount calculated by the Board overcompensates the Provider since the Provider’s DRG
payments contain partial compensation for its fixed
costs.5 Furthermore, by maintaining that the payment
amount is equal to the hospital’s fixed costs not to exceed the ceiling (i.e., the difference between the hospital’s total costs and its DRG payment), the Board is
essentially saying that the VDA payment is equal to
the ceiling because the fixed costs ($5,033,835 in this
case) will always be greater than the ceiling as calculated by the Board ($741,308). This renders the MAC’s
elimination of variable costs as affirmed by the Board,
meaningless because the payment amount will always
result in the difference between the hospital’s total
costs and its DRG payment which does not, fully compensate [a qualifying provider] for the fixed costs it incurs. The Board’s methodology does not isolate the
difference between the hospital’s fixed and semi-fixed

5

In the September 1, 1987 final rule, CMS revised 412.92(e)(3)
to specify that the VDA would be paid as a “lump sum adjustment
amount not to exceed the difference between the hospital’s Medicare inpatient operating costs and the hospital’s total DRG revenue
based on DRG-adjusted prospective payment rates.” Hospitals that
receive payments that are greater than the hospital’s Medicare
inpatient operating costs have been “fully compensated” for those
costs by the prospective payment system . . . Therefore, 412.92(e)(3)
was revised to make it clear that any adjustment amounts
granted to SCHs for a volume decrease may not exceed the difference between the hospital’s Medicare inpatient operating costs
and the total payments made under the inpatient prospective
payment system, including outlier payments and indirect medical
education costs. (52 Fed. Reg. 33049, September 1, 1987).

App. 60
costs and its DRG payment in order to properly compensate the provider for its fixed and semi-fixed costs.
In sum, the Administrator finds that the Board properly
found that the MAC correctly identified and eliminated
variable costs in determining the Provider’s fixed costs
for FY 2006 for purposes of the determination on the
Provider’s request for an SCH volume decrease adjustment, and affirms the Board on that portion of the decision. However, as discussed above, the Administrator
finds that the Board’s calculation of the volume decrease adjustment amount was improper. Therefore
the Administrator modifies the Board’s decision as it
specifically relates to the calculation of the Provider’s
volume decrease amount adjustment.
DECISION
The decision of the Board is modified in accordance
with the foregoing opinion.
THIS CONSTITUTES THE FINAL
ADMINISTRATIVE DECISION
OF THE SECRETARY OF HEALTH
AND HUMAN SERVICES
Date:

Sept. 4, 2014

/s/
Marilyn Tavenner
Administrator
Centers for Medicare
& Medicaid Services

App. 61
PROVIDER REIMBURSEMENT REVIEW
BOARD DECISION
2014-D15
PROVIDER –
UNITY HEALTHCARE
MUSCATINE, IA
Provider No.: 16-0013
vs.
INTERMEDIARY –
BlueCross BlueShield
Association/Wisconsin
Physician Services

DATE OF HEARING February 2, 2012
Cost Reporting
Period Ended June 30, 2006
CASE NO.: 10-0386

INDEX
Page No.
Issue ....................................................................... 2
Medicare Statutory and Regulatory Background ................................................................ 2
Statement of the Case and Procedural History ..................................................................... 5
Provider’s Contentions ...................................... 6
MAC’s Contentions ............................................. 9
Findings of Fact, Conclusions of Law and
Discussion ....................................................... 11
Decision and Order........................................... 20

App. 62
[2] ISSUES:
Whether the Medicare Administrative Contractor improperly calculated the provider’s sole community hospital volume decrease adjustment by excluding certain
variable and semi-fixed costs?1
MEDICARE STATUTORY AND REGULATORY
BACKGROUND:
This is a dispute over the amount of Medicare reimbursement due a provider of medical services.
The Medicare program was established under Title
XVIII of the Social Security Act, as amended (“Act”), to
provide health insurance to the aged and disabled. The
Act was codified at 42 U.S.C. Chapter 7, Subchapter
XVIII. The Centers for Medicare and Medicaid Services (“CMS”), formerly the Health Care Financing Administration (“HCFA”), is the operating component of
the Department of Health and Human Services
(“DHHS”) charged with administering the Medicare
program. CMS’ payment and audit functions under the
Medicare program are contracted to organizations
known as fiscal intermediaries (“FIs”) and Medicare
Administrative Contractors (“MACs”).2 FIs and MACs
determine payment amounts due the providers under

1

Transcript(“Tr”) at 5-6.
The Medicare contractor in this case is a MAC. Hereinafter,
MAC and intermediary are used interchangeably.
2

App. 63
Medicare law and under interpretive guidelines published by CMS.3
At the close of its accounting year, a provider must
submit a cost report to the MAC showing the costs it
incurred during the relevant fiscal year and the proportion of those costs to be allocated to the Medicare
program.4 The MAC reviews the cost report, determines the total amount of Medicare reimbursement
due the provider and issues the provider a Notice of
Program Reimbursement (“NPR”).5 A provider dissatisfied with the MAC’s final determination of total
reimbursement may file an appeal with the Provider
Reimbursement Review Board (“Board”) within 180
days of the issuance of the NPR.6 Other relevant laws,
regulations and related documents are presented as
follows.
The operating costs of inpatient hospital services are
reimbursed by Medicare primarily through the Inpatient Prospective Payment System (“IPPS”).7 IPPS
provides Medicare payment for hospital inpatient operating and capital related costs at predetermined,
specific rates for each hospital discharge.
IPPS also allows special treatment for facilities that
qualify as “Sole Community Hospitals” “SCHs”).8 The
3
4
5
6
7
8

See 42 U.S.C. § 1395h; 42 C.F.R. §§ 413.20(b), 413.24(b).
42 C.F.R. § 413.20.
42 C.F.R. § 405.1803.
42 U.S.C. § 1395oo(a); 42 C.F.R. § 405.1835.
See 42 U.S.C. § 1395ww(d).
42 CFR § 412.92.

App. 64
main statutory provisions governing SCHs are located
in 42 U.S.C. § 1395(d)(5)(D) and they define an SCH as
a facility that: (1) is located more than 35 road miles
from another hospital; (2) by reason of factors such as
the time required for an individual to travel to the
nearest alternative source of appropriate inpatient
care, location, weather conditions, [3] travel conditions,
or absence of other like hospitals, is the sole source of
inpatient hospital services reasonably available to individuals in a geographic area who are entitled to benefits under part A; or (3) is located in a rural area that
has been designated as an essential access community
hospital under 42 U.S.C. § 1395i-4(i)(1).9
42 U.S.C. § 1395ww(d)(5)(D)(ii) authorizes the Secretary of DHHS to adjust the payment to SCHs that incur a decrease in discharges of more than 5 percent
from one cost reporting year to the next, stating:
In the case of a sole community hospital that
experiences, in a cost reporting period compared to the previous cost reporting period, a
decrease of more than 5 percent in its total
number of inpatient cases due to circumstances beyond its control, . . . as may be necessary to fully compensate the hospital for the
fixed costs it incurs in the period in providing
inpatient hospital services, including the reasonable cost of maintaining necessary core
staff and services.

9

42 U.S.C. § 1395ww(d)(5)(D)(iii).

App. 65
The regulations implement this statutory adjustment
are located at 42 C.F.R. § 412.92(e). In particular, subsection (e)(1) specifies the following regarding low volume adjustment:
The intermediary provides for a payment adjustment for a sole community hospital for
any cost reporting period during which the
hospital experiences, due to circumstances
[beyond the hospital’s control] a more than
five percent decrease in its total discharges of
inpatients as compared to its immediately
preceding cost reporting period.
Once an SCH demonstrates that it has suffered a qualifying decrease in total inpatient discharges, the intermediary must determine the appropriate amount, if
any, due to the provider as an adjustment. In this regard, subsection (e)(3) of the controlling regulation
specifies the following regarding the determination of
the low volume adjustment amount:
(3) The intermediary determines a lump
sum adjustment amount not to exceed the difference between the hospital’s Medicare inpatient operating costs and the hospital’s total
DRG revenue for inpatient operating costs
based on DRG- adjusted prospective payment
rates for inpatient operating costs. . . .
(i) In determining the adjustment amount,
the intermediary considers—
(A) The individual hospital’s needs and circumstances, including the reasonable cost of
maintaining necessary core staff and [4] services

App. 66
in view of minimum staffing requirements imposed by State agencies;
(B) The hospital’s fixed (and semi-fixed)
costs, other than those costs paid on a reasonable cost basis under part 413 of this chapter;
and
(C) The length of time the hospital has experienced a decrease in utilization.10
In addition to the controlling regulation, CMS also provides interpretive guidelines in the Provider Reimbursement Manual, CMS Pub. No. 15-1 (“PRM 15-1”),
§ 2810.1(B). PRM 15-1 is intended to ensure that Medicare reimbursement standards “are uniformly applied
nationally without regard to where covered services
are furnished.”11 To this end, § 2810.1(B) provides
guidance to assist MACs in the calculation of volume
decrease adjustments for SCHs. In particular,
§ 2810.1(B) states the following regarding the amount
of a low volume adjustment for SCHs:
B. Amount of Payment Adjustment. – Additional payment is made to an eligible SCH for
the fixed costs it incurs in the period in providing inpatient hospital services including the
reasonable cost of maintaining necessary core
staff and services, not to exceed the difference
between the hospital’s Medicare inpatient operating cost and the hospital’s total DRG revenue.
10
11

42 C.F.R. § 412.92(e)(3).
See CMS Pub. 15-1, Foreword.

App. 67
Fixed costs are those costs over which management has no control. Most truly fixed costs,
such as rent, interest, and depreciation, are
capital-related costs and are paid on a reasonable cost basis, regardless of volume. Variable
costs, on the other hand, are those costs for
items and services that vary directly with utilization such as food and laundry costs.
In a hospital setting, however, many costs are
neither perfectly fixed nor perfectly variable,
but are semi-fixed. Semi-fixed costs are those
costs for items and services that are essential
for the hospital to maintain operation but also
vary somewhat with volume. For purposes of
this adjustment, many semi-fixed costs, such
as personnel-related costs, may be considered
as fixed on a case-by-case basis.
In evaluating semi-fixed costs, the MAC considers the length of time the hospital has experienced a decrease in utilization. For a short
period of time, most semi-fixed costs are
considered fixed. As the period of decreased
utilization continues, we expect that a [5] costeffective hospital would take action to reduce
unnecessary expenses. Therefore, if a hospital
did not take such action, some of the semifixed costs may not be included in determining the amount of the payment adjustment.
The PRM 15-1 § 2810.1(D) provides the following instruction regarding the processing of an adjustment
request:

App. 68
D. Determination on Requests. – The MAC
reviews a hospital’s request for additional
payment for completeness and accuracy. If
any of the required documentation is missing,
incomplete, or inaccurate, the MAC requests
the needed information. The MAC makes a
determination on the request and notifies the
hospital of the decision within 180 days of the
date the MAC receives all required information.
The payment adjustment is calculated under
the same assumption used to evaluate core
staff, i.e. the hospital is assumed to have
budgeted based on prior year utilization and
to have had insufficient time in the year in
which the volume decrease occurred to make
significant reductions in cost. Therefore, the
adjustment allows an increase in cost up to
the prior year’s total Program Inpatient Operating Cost (excluding pass-through costs), increased by the PPS update factor.
The dispute in this case centers on the application of
the statutes to the proper classification and treatment
of costs and the proper calculation of the amount for
the low volume adjustment.
STATEMENT OF THE CASE AND PROCEDURAL
HISTORY:
Unity Healthcare (“Provider”) is a rural, IPPS hospital
located in Muscatine, Iowa and the Provider’s fiscal
year (FY) ends June 30th. At all relevant times, the
Provider qualified and was reimbursed as an SCH. The

App. 69
Provider’s designated intermediary is Wisconsin Physician Services (“MAC”).
From FY 2005 to FY 2006, the Provider suffered a
16.89 percent decline in inpatient discharges. The
MAC has stipulated that the decline was due to external circumstances beyond the Provider’s control.12 On
December 7, 2007, the Provider received its NPR for
FY 2006.13 Shortly thereafter, the Provider submitted
a request to the MAC for an SCH volume decrease adjustment of $741,308.
In reviewing this low volume adjustment request, the
MAC adjusted the Provider’s reported expenses by
classifying certain costs, specifically, billable medical
supplies, billable drugs, IV drugs, third-party goods
and services, including physical therapy, lab, blood and
radiology, as [6] variable costs and excluded those reclassified costs from the low volume adjustment calculation.14 On July 22, 2009, the MAC responded to the
Provider’s request with a final determination that
granted the Provider an SCH volume decrease adjustment of $76,314 for FY 2006.15
On January 14, 2010, the Provider timely filed an
appeal with the Board and met the jurisdictional requirements of 42 C.F.R §§ 405.1835 - 405.1841. The
Medicare reimbursement amount in controversy is the
12
13
14
15

MAC Final Position Paper at 3.
Provider Exhibit P-1.
Provider Exhibits P-2 thru P-6; Tr. at 13.
Provider Exhibit P-2.

App. 70
difference between the $741,308 claimed by the Provider and the $76,314 paid by the MAC: $664,994.
The Board conducted a hearing on February 2, 2012.
The Provider was represented by Kirk S. Blecha, Esq.,
and Andrew D. Kloeckner, Esq., of Baird Holm, LLP.
The MAC was represented by James R. Grimes, Esq.,
of the Blue Cross and Blue Shield Association.
PROVIDER’S CONTENTIONS:
The Provider contends that, based upon the decline in
its inpatient discharges from FY 2005 to FY 2006, it is
eligible to receive a volume decrease adjustment in the
amount of $741,308.16 The Provider argues that it calculated its volume decrease adjustment in accordance
with the law and the instructions in the PRM 15-1
§ 2810.1 and that the MAC unilaterally and without
legal authority reclassified certain fixed and semi-fixed
costs as variable.17 The MAC excluded the reclassified
variable costs from the volume decrease adjustment
calculation which resulted in a revised adjustment
amount of $76,314.18 The Provider submits that the reclassified costs are not “variable” but rather are “fixed”
16

Provider Exhibit P-3; see also PRM 15-1 § 2810.1(D) (setting forth sample calculation).
17
The reclassified categories of costs at issue are: (i) billable
medical supplies; (ii) billable drugs and IV solutions; (iii) professional services obtained from third party providers such as physical therapy, reference laboratory, blood bank, and diagnostic
imaging; and (iv) dietary and linen expenses. See Provider Exhibit
P-2 at 6.
18
Exhibit Provider P-2 at 1.

App. 71
costs and that these costs should be treated accordingly in the calculation of the adjustment amount. The
Provider cites to the PRM 15-1 § 2810.1(B), which defines “fixed costs” as “those costs over which management has no control.”19 The Provider contends that the
hospital management had no ability to control the particular costs at issue and that, as a result, these costs
should properly be defined as fixed for the purpose of
calculating the Provider’s volume decrease adjustment
amount.20 The Provider contends that the Board
should look past traditional cost accounting concepts
of fixed and variable costs and instead rely upon the
costing definitions provided in the PRM 15-1.
In the alternative, the Provider contends that, even if
the costs excluded by the MAC are not “fixed,” they
nonetheless should be included in the volume decrease
adjustment as “semi-fixed” costs. In support of this argument, the Provider cites the following language from
PRM 15-1 § 2810.1(B):
[7] In a hospital setting, however, many costs
are neither perfectly fixed nor perfectly variable, but are semi-fixed. Semi-fixed costs are
those costs for items and services that are essential for the hospital to maintain operation
but also vary somewhat with volume.
This section further states: “For a short period of time,
most semi-fixed costs are considered fixed.”

19
20

PRM 15-1 § 2810.1(B).
Tr. at 43-44.

App. 72
The Provider argues that, based on § 2810.1(B), a
semi-fixed cost is a cost that may be considered variable in a cost accounting sense, but is nevertheless a
cost that is essential to hospital operations, i.e., the
hospital could not operate without the availability of
the particular item or service. The Provider contends
that the cost categories excluded by the MAC were essential for the Provider to maintain its operations as a
hospital,21 that the MAC’s own witness agreed that the
excluded costs were “core costs” necessary for the Provider to maintain the operation of the hospital22 and
should, at the very least, be classified as “semi-fixed.”
The Provider argues further that, because the decreases in discharges occurred over a short period of
time, the MAC should have considered these semifixed costs as fixed, as directed by the PRM 15-1.23
The Provider also asserts that the term “variable”
should be limited to those specific examples of “variable” costs provided in the PRM 15-1 § 2810.1(B). The
Provider further notes that § 2810.1(B) only uses the
term “variable” twice but offers substantive details for
other elements of the volume decrease adjustment.
The Provider submits that this is consistent with the
overarching intent of the PRM 15-1, which is to ensure
that reimbursement rules are uniformly applied on a
nationwide basis.24 Any other interpretation of the
21
22
23
24

Tr. at 44, 56, 58, 61, 64, 69-70.
Tr. at 306-307, 318.
PRM 15-1 § 2810.1(B).
See PRM 15-1, Foreword.

App. 73
word “variable” would allow MACs to use their own
definitions of “variable” and subject the calculation to
manipulation, contrary to the express intent of the
PRM 15-1. The Provider contends that, even when
truly “variable” costs are excluded from the calculation, there is no impact on the Provider’s volume decrease adjustment.25
The Provider also contends that, when the MAC made
its exclusion adjustments, it failed to recognize that
the DRG payments received by the Provider throughout the year contain components that are intended to
compensate the Provider for its fixed, semi-fixed, and
variable costs. Ideally, DRG reimbursement equals the
total cost of providing care to a particular patient. The
Provider recognizes that a hospital makes or loses
money on a Medicare beneficiary depending on
whether its actual costs in providing care to the beneficiary (fixed, semi-fixed, and variable) exceed or fall
below the DRG payment received from the MAC. The
Provider argues that the intent behind the volume decrease adjustment is to make an eligible provider
whole if it experiences an unexpected decrease in discharges over a short period of time. The Provider contends that the MAC’s cost exclusion violated the intent
and spirit of the volume decrease [8] adjustment. It
created an imbalance between the Provider’s DRG
payments and the costs used in the adjustment calculations. If those costs are properly excludable, the Provider contends that the total DRG payment figure
25

Provider Exhibit P-7.

App. 74
utilized to calculate the volume decrease adjustment
should also be decreased by the component of the DRG
that reimburses the hospital for those same costs.
The Provider also argues that the MAC’s cost exclusion
was arbitrary, capricious, and made without any basis
in law or in fact. The MAC sought guidance from CMS
on the calculations but received no response.26 It was
not until the appeal was filed that CMS agreed with
the MAC’s decision, and even then, CMS did not describe the types of costs that should be excluded by the
MAC as variable.27 Guidance provided by CMS after
the fact may not be applied retroactively to the detriment of the Provider.28 Further, the MAC recognized
that the excluded costs were not controllable by management, a key characteristic of a “fixed” cost.29 The
MAC also recognized that the excluded costs were essential to hospital operations, and so met the definition
of a “semi-fixed” cost.30 The Provider contends that the
MAC ignored these definitions when it excluded costs
as variable costs, and so acted in an arbitrary and capricious manner.

26

Tr. at 322-323.
MAC Exhibits I-6 and I-7.
28
See Catholic Health Initiatives - Iowa, Corp. v. Sebelius,
841 F. Supp. 2d (D.D.C. 2012) (holding that the Secretary may
not retroactively apply a substantive change in policy or practice
when the change attaches new legal consequences to a provider),
rev’d, 718 F.3d 914 (D.C. Cir. 2013).
29
Tr. at 325-327.
30
Tr. at 306-307 and 318.
27

App. 75
The Provider also asserts that the MAC’s cost exclusions were based on broad statements and assumptions that have no basis in law or in fact. The MAC
stated that it “identified those costs that obviously
vary with patient volume, i.e., billable drugs and supplies and outside patient services.”31 The MAC further
stated that the cost categories eliminated “would obviously vary in direct correlation to the number of patients and are therefore deemed variable.”32 Further,
the MAC asserted that “[f ]ewer patients mean less demand for drugs, which should mean less cost for drugs.
These costs therefore vary directly with utilization.”33
At the hearing, however, the MAC testified that it did
not consult any empirical studies or legal documents
that would lead to a conclusion that fewer patients
mean less drugs.34 The MAC agreed with the Provider’s
contention that fewer patients does not necessarily
mean that fewer drugs or fewer outside services would
be needed but, rather, there could be numerous plausible scenarios where a provider could have fewer but
sicker patients who needed significantly more drugs or
outside services.35 The Provider also contends, these
costs do not vary directly with utilization, which is a
key characteristic of a “variable” cost. Although there
may be some correlation between discharges and these
costs, such an indirect correlation means these costs
31
32
33
34
35

MAC Final Position Paper at 11.
Id.
MAC Final Position Paper at 12-13.
Tr. at 309.
Tr. at 312-318.

App. 76
only vary somewhat with discharges and that these
costs are best classified as semi-fixed. By failing to rely
on any sort of studies or other guidance to determine
those costs to exclude as variable, the MAC’s cost exclusion was arbitrary and capricious and without any
basis in law or in fact.
[9] MAC’S CONTENTIONS:
The MAC argues that the collective body of governing
statutes, regulations, and CMS guidance make clear
that the intention of the volume decrease adjustment
is to ensure that a qualifying SCH is compensated for
fixed costs, which by definition requires that variable
costs be excluded from the payment calculation. The
controlling federal statute specifies this clearly:
In the case of a sole community hospital that
experiences, in a cost reporting period compared to the previous cost reporting period, a
decrease of more than 5 percent in its total
number of inpatient cases due to circumstances beyond its control, the Secretary shall
provide for such adjustment to the payment
amounts under this subsection (other than
under paragraph (9)) as may be necessary to
fully compensate the hospital for the fixed
costs it incurs in the period in providing inpatient hospital services, including the reasonable cost of maintaining necessary core staff
and services.36

36

42 U.S.C. § 1395ww(d)(5)(D)(ii) (emphasis added).

App. 77
The MAC argues that this language makes clear that
the adjustment to the patient amounts is to fully compensate hospitals for only the fixed costs that they incur in providing hospital services as well as core staff
and service and that variable cost be removed from the
payment calculation.37
The MAC also challenges the Provider’s contention
that the language at 42 C.F.R. § 412.108(e)(3) controls
the volume decrease adjustment payment. The MAC
argues that the section simply describes the limitation
in the lump sum payment, not the calculation of the
payment itself. In support, the MAC asserts that this
regulation in subsection (e)(3)(i) requires that when
“[t]he Intermediary determines a lump sum adjustment amount” it must consider the following factors:
(A) The individual hospital’s needs and circumstances, including the reasonable cost of
maintaining necessary core staff and services
in view of minimum staffing requirements imposed by State agencies;
(B) The hospital’s fixed (and semi-fixed)
costs, other than those costs paid on a reasonable cost basis under part 413 of this chapter;
and

37

See also 71 Fed. Reg. 47870, 48056 (Aug. 18, 2006) (stating
that “these adjustments were designed to compensate an SCH or
MDH for the fixed costs it incurs in the year following the reduction in discharges (that is, the second year), which it may be unable to reduce. Such costs include the maintenance of necessary
core staff and services”).

App. 78
(C) The length of time the hospital has experienced a decrease in utilization.
[10] The MAC contends that the language in clause (B)
requires that the MAC consider the hospital’s fixed
and semi-fixed costs in determining the payment
amount and, by exclusion, not consider variable costs
in the payment. The MAC argues that the Board
adopted this interpretation in its 2006 decision in
Greenwood County Hospital v. BlueCross BlueShield
Association (“Greenwood County”)38as evidenced by the
following excerpt:
The Board, however, finds that the Intermediary correctly chose not to consider within its
calculation those costs which the provider, by
its own election, labeled as variable. The
Board finds that 42 C.F.R. § 412.96(e) and
PRM § 2810.1 explicitly dictate that the adjustment is limited to fixed and semi-fixed
costs. While the Provider contends the reference to “operating costs within the regulation
allows some variable costs to be included in
the adjustment, such reference applies to the
methodology for calculating the limit of an adjustment. Accordingly, the $1,003,599 of variable costs identified by the Provider should be
excluded from the low volume adjustment.
Since the total program cost is now reduced to
$1,920,154 and the DRG payment amount

38

PRRB Dec. No. 2006-D43 at 9 (Aug. 29, 2006), declined review, Administrator (Oct. 13, 2006),

App. 79
was $1,570,475, the Provider is entitled to an
adjustment of $349,679.39
The MAC also challenges the Provider’s interpretation
of PRM 15-1 § 2810.1 which assumes that, because the
limitation is based upon total Medicare operating costs
(including variable costs), the payment should be
based upon total Medicare inpatient operating costs.
The MAC contends that PRM 15-1 § 2810.1 provides a
formula for determining a limit on the payment that is
“not to exceed the difference between the hospital’s
Medicare inpatient operating cost and the hospital’s
total DRG revenue” and that this calculation of limitation is independent of the calculation of the actual payment. In support of this position, the MAC again cites
to the language in the Board’s decision in Greenwood
County:
The Board notes that while consistent with
the regulation, the text at PRM § 2810.B . . .
explicitly dictates that fixed (and semi-fixed)
costs may comprise the adjustment, the use of
the term “operating costs” in the subsequent
examples . . . may suggest that variable costs
could be included. However, the Board finds
that the examples are intended to demonstrate how to calculate the adjustment limit
as opposed to determining which costs should
be included in the adjustment.40
The MAC disagrees with the Provider’s assertion that
comparing the provider’s actual costs, exclusive of
39
40

Id. at 8-9.
Id. at 8 n.19.

App. 80
variable cost, to the actual amounts that were paid to
the provider under the IPPS payment system is unbalanced as the payment made under the IPPS system includes reimbursement for variable costs. Rather, the
MAC contends that the intent of the regulation is [11]
to ensure only that the provider has been fully compensated for the fixed costs incurred during the fiscal
period. To this end, the MAC contends that the only
way to determine if the provider has been fully compensated for fixed costs is to compare fixed costs to the
total compensation made to the provider. This is
achieved by comparing the provider’s actual costs, exclusive of variables cost, to the actual amounts that
were paid to the provider under the IPPS payment system.
In determining variable costs, the MAC followed the
written guidance which states: “Variable costs, on the
other hand, are those costs for items and service that
vary directly with utilization such as food and laundry
costs.”41 This definition makes clear that services
charged directly to patients, i.e., billable drugs and
supplies as well as outside services such as therapy,
would vary in direct correlation to the number of patients and should be classified as variable costs. As
such they are properly excluded from the volume decrease payment adjustment in accordance with the
regulations.
The MAC also disputes the Provider’s assertion that
the costs identified and excluded as variable by the
41

PRM 15-1 § 2810.1(B).

App. 81
MAC should be classified as semi-fixed. Again, PRM
§ 2810.1(B) specifies:
Semi-fixed costs are those costs for items and
services that are essential for the hospital to
maintain operation but also vary somewhat
with volume. For purposes of this adjustment,
many semi-fixed costs, such as personnelrelated costs, may be considered as fixed on a
case-by-case basis.
In evaluating semi-fixed costs, the intermediary considers the length of time the hospital
has experienced a decrease in utilization. For
a short period of time, most semi-fixed costs
are considered fixed.
The MAC argues that the excluded costs are variable
because they vary directly with patient usage.42 As patient volume decreases, the demand for such services
declines, directly reducing the level of the costs generated. Further, the MAC argues that the intent of CMS
in considering some semi-fixed costs as fixed was primarily to protect providers’ personnel related costs.43
CMS recognizes that, while a decrease in patient days
may indicate a need for less nursing staff, layoffs may
disrupt the provider’s operations and infringe on minimum staffing requirements. For this reason, the MAC
contends that it did not exclude personnel costs from
the payment amount and that only those costs with
variable characteristics were properly excluded.

42
43

Tr. at 284.
See supra note 37.

App. 82
FINDINGS OF FACT, CONCLUSIONS OF LAW AND
DISCUSSION:
After considering the Medicare law and program instructions, evidence presented in the record and the
parties’ contentions and stipulations, the Board finds
and concludes that the MAC [12] properly excluded
variable costs from the calculation of the Provider’s
sole community hospital volume decrease adjustment
amount. However, the Board also finds that the MAC’s
calculation of that payment adjustment amount was
not consistent with 42 C.F.R. § 412.92(e)(3) and PRM
15-1 § 2810.1 and, accordingly, is not proper.
VARIABLE COSTS:
A primary dispute between the parties centers on the
proper treatment of variable and semi-fixed costs
within the calculation of the Provider’s sole community
hospital volume decrease adjustment. The Provider argues that fixed costs are “those costs over which management has no control”44 and, accordingly, such costs
are properly classified as fixed in the context of a volume decrease. The Provider also contends that, even if
the costs excluded by the MAC are not “fixed,” they
nonetheless should be included in the volume decrease
adjustment as “semi-fixed” costs. The Provider argues
that “[s]emi-fixed costs are those costs for items and
services that are essential for the hospital to maintain
operation but also vary somewhat with volume”45 and,
44
45

PRM 15-1 § 2810.1(B).
Id.

App. 83
“[f ]or a short period of time, most semi-fixed costs are
considered fixed.”46 The Provider contends that all of
the costs excluded by the MAC were essential for the
hospital to maintain its operations and are properly
classified as semi-fixed costs. The Provider argues that
PRM 15-1 § 2810.1(B) requires that the MAC consider
semi-fixed costs to be fixed and include them in the calculation of the volume decrease adjustment amount.
The Board’s examination of the governing statutes and
implementing regulations and guidance does not support the Provider’s argument. The Board can find nothing in the language of the controlling federal statute at
42 U.S.C. § 1395ww(d)(5)(D)(ii), the controlling regulation at 42 C.F.R. § 412.92(e)(1)-(3), or the manual guidance at PRM 15-1 § 2810.1(B) that supports the
Provider’s position that, once costs are experienced in
an environment of reduced volume, they becomes fixed
or, alternatively semi-fixed, costs regardless of their
nature or characteristics. While the controlling federal
statute provides that the Secretary “shall provide for
such adjustment to the payment amounts under this
subsection . . . as may be necessary to fully compensate
the hospital for the fixed costs it incurs in the period in
providing inpatient hospital service,” it recognizes that
not all costs are fixed. Consistent with the controlling
federal statute, both the implementing regulation and
manual guidance clearly recognize three categories of
costs, i.e., fixed, semi-fixed and variable. Further, the
guidance considers only fixed and semi-fixed costs
46

Id.

App. 84
within the calculation of the volume adjustment but
not variable costs. The Board believes that the omission is significant and decisive in this case.
The Board’s finding is further supported by the discussion included in the interim final rule published on
September 1, 1983 that implemented the special payment provisions for SCHs, including the SCH payment
adjustment for SCHs experiencing a 5 percent decrease in patient volume.47 As part of this final rule,
CMS adopted the regulatory provision currently located at 42 C.F.R. § 412.92(e)(3)(B) that specifies that
the volume decrease payment adjustment should consider, among other things, “[t]he hospital’s fixed (and
semi-fixed) costs, other than those [13] costs paid on a
reasonable cost basis under part 413 of this chapter.”48
In this regard, CMS included the following discussion
in the preamble on fixed and semi-fixed costs:
The statute requires that the payment adjustment be made to compensate the hospital for
the fixed costs it incurs in the period in providing inpatient hospital services including the
47

48 Fed. Reg. 39752, 39780-39784 (Sept. 1, 1983).
Originally, this regulatory provision was located at 42
C.F.R. § 405.476(d)(3)(H); redesignated in 1985 as 42 C.F.R.
§ 412.92(e)(3)(ii) without substantive change; and again redesignated in 1988 as 42 C.F.R. § 412.92(e)(3)(i)(B) without substantive change. See 48 Fed. Reg. at 38828; 50 Fed. Reg. 12740, 12741,
12756 (Mar. 29, 1985); 53 Fed. Reg. 38476, 38530 (Sept. 1, 1988);
55 Fed. Reg. 15150, 15174 (Apr. 20, 1990) (correcting an editorial
error made in the September 1, 1988 redesignation). Compare 42
C.F.R. § 405.476(d)(3)(ii) (1984) with 42 C.F.R. § 412.92(e)(3)(i)(B)
(2005).
48

App. 85
reasonable cost of maintaining necessary core
staff and services.
Fixed costs are defined as those over which
management has no control. Most true fixed
costs such as rent, interest, and depreciation
are capital-related costs and would be paid on
a reasonable cost basis, regardless of volume.
Variable costs, on the other hand, are those
costs for items and services that vary directly
with utilization. However, in a hospital setting many costs are neither perfectly fixed nor
perfectly variable, but are semifixed. Semifixed costs are those costs for items and services that are essential for the hospital to
maintain operation but will also vary with
volume. For purposes of this adjustment,
many semifixed costs, such as personnel related costs, may be considered as fixed on a
case by case basis. An adjustment will not be
made for truly variable costs, such as food and
laundry services.
In evaluating semifixed costs, such as personnel, HCFA will consider the length of time the
hospital has experienced a decrease in utilization. For a short period of time, most semifixed
costs would be considered fixed. As the period
of decreased utilization continues, we would
expect that a cost-effective hospital would
take some action to reduce unnecessary expenses. Therefore, if a hospital did not take
such action, we would not include such costs
in determining the amount of the adjustment.

App. 86
The statute also requires that the adjustment
amount include the reasonable cost of maintaining necessary core staff and services.
HCFA will review the determination of core
staff and services based on an individual hospital’s needs and circumstances; e.g., minimum staffing requirements imposed by State
agencies.
Thus, at the outset, CMS distinguished fixed and semifixed costs from variable costs. Significantly, the PRM
15-1 guidance at issue located in § 2810.1 was initially
published in [14] March 1990 and reflects almost verbatim the above discussion on distinguishing fixed and
semi-fixed costs from variable costs.49
The treatment of variable cost within the calculation
of the volume decrease adjustment is not new to the
Board. In Greenwood County, the Board considered the
elimination of variable costs from the calculation and
concluded:
The Board, however, finds that the Intermediary correctly chose not to consider within its
calculation those costs. . . . labeled as variable. The Board finds that 42 C.F.R. § 412.96(e)
and PRM § 2810.1 explicitly dictate that the
adjustment is limited to fixed and semi-fixed
costs.50
The Provider asks the Board to look past traditional
cost accounting concepts of fixed and variable costs and
49

PRM 15-1, Transmittal 356 (Mar. 1990) (issuing the criteria PRM 15-1 § 2810.1(B)).
50
Greenwood County, PRRB Dec. No. 2006-D43 at 8.

App. 87
instead rely upon the costing definitions provided in
PRM 15-1. However, the Board can find nothing in
PRM 15-1 that varies with traditional cost accounting
concepts. Accordingly, the Board concludes that the
MAC correctly eliminated variable costs from the calculation.
Finally, the Board accepts the MAC’s determination
and elimination of variable costs for FY 2006. Specifically, the Board affirms the MAC’s exclusion of the following costs as variable: (1) billable medical supplies;
(2) billable drugs and IV solutions; (3) professional services obtained from third party providers such as physical therapy, reference lab, blood bank, and diagnostic
imaging; and (4) dietary and linen expenses.51 These
four categories of costs are for services and items that
are tied to patient demand (i.e., utilization) and thus,
by their nature, are expected to vary directly based on
patient volume. Indeed, as noted above, CMS listed dietary and linen costs as examples of “truly variable
costs” which are analogous to the other categories of
costs at issue. A key phrase that gives context to
whether a cost is a fixed cost versus a variable cost is
the description of fixed costs as including “the reasonable cost of maintaining necessary core staff and services.”
The Provider focuses on the statement in PRM 15-1
§ 2810.1(B) that fixed costs are “those costs over which
management has no control” and asserts that, because
the services/items underlying these four categories of
51

See Provider Exhibit P-2 at 6.

App. 88
costs are necessary for the care of the patient (e.g., physician prescription), the costs for such services/items
are beyond management control and, thereby, are fixed
costs. Under the Provider’s reading, essentially all
costs would qualify as fixed or semi-fixed because they
are necessary for patient care. Thus, the Provider is really asserting that it is due its full reasonable costs.
However, the Provider misconstrues and takes out of
context the statement in PRM 15-1 § 2810.1(B). Consistent with the purpose of the adjustment (i.e., to compensate the hospital for fixed costs during a period the
hospital experiences a volume decrease of 5 percent or
more), this sentence is stated from a macro perspective
of the time period in which the SCH experienced the
[15] volume decline (e.g., fiscal year) as demonstrated
by the following examples of fixed costs given in ensuing sentence: “Most truly fixed costs, such as rent, interest, and depreciation, are capital-related costs and
are paid on a reasonable cost basis, regardless of volume.”
The Board’s conclusion is further supported by the
statement in § 2810.1(B) that fixed costs include “the
reasonable cost for maintaining core staff and services.” The operative words to restrict the scope of the
fixed costs are “maintaining” and “core.”
The Provider failed to provide sufficient evidence that
any of the categories of costs that the MAC excluded
contained any fixed/semi-fixed costs. The Provider has
failed to meet its burden of proof in this regard.

App. 89
Based on the above, the Board finds that the MAC correctly identified and eliminated variable cost in determining that the Provider’s fixed costs for FY 2006 was
$5,033,835 for purposes of the determination on the
Provider’s request for a sole community hospital volume decrease adjustment.52
CALCULATION OF THE VOLUME DECREASE ADJUSTMENT:
When CMS promulgated regulations to implement the
low-volume adjustment, CMS specified that it was responsible for calculating the low-volume adjustment
payment amount for qualifying SCHs on a case-bycase basis.53 CMS also stated that it determined such
payments as “a per discharge payment adjustment”
which is consistent with requirement in 42 C.F.R.
§ 412.92(e)(2) that an applying SCH “must submit documentation demonstrating . . . the resulting effect [of
the volume decrease] on per discharge costs.”
In the final rule published on September 1, 1987, CMS
revised § 412.92(e)(3) to specify that the low-volume
adjustment payment would be paid as “a lump sum adjustment amount not to exceed the difference between
the hospital’s Medicare inpatient operating costs and
the hospital’s total DRG revenue based on DRGadjusted prospective payment rates (including outlier
payments).”54 In the preamble to the 1987 rule, CMS
provides the following discussion for making the
52
53
54

See MAC Exhibit I-2 at 1; Provider Exhibit P-2 at 3.
See 52 Fed. Reg. at 33049.
52 Fed. Reg. 33034, 33057 (Sept. 1, 1987).

App. 90
payment adjustment as a “lump sum” establishing a
ceiling to that “lump sum”:
We determine on a case-by-case basis whether
an adjustment will be granted and the
amount of that adjustment. As specified in
Sec. 412.92(e)(3), a per discharge payment adjustment, including at least an amount reflecting the reasonable cost of maintaining the
hospital’s necessary core staff and services, is
determined based on the individual hospital’s
needs and circumstances, the hospital’s fixed
and semi-fixed costs not paid on a reasonable
cost basis, and the length of time the hospital
has experienced a decrease in utilization.
[16] Based on our experience with this provision and the applications we have received
from SCHs for a volume adjustment, we believe it is appropriate at this time to clarify
the regulations at 412.92(e). Section
1886(d)(5)(C)(ii) of the Act provides that if an
SCH experiences a decrease of more than five
percent in its total number of inpatient cases
due to circumstances beyond its control, “ . . .
the Secretary shall provide for such adjustment to the payment amount under this subsection . . . as may be necessary to fully
compensate the hospital for the fixed costs it
incurs in the period in providing inpatient
hospital services, including the reasonable
cost of maintaining necessary core staff and
services.” We believe that this language makes
it clear that a hospital that has continued to
receive payments under the prospective payment system that are greater than its inpatient

App. 91
operating costs, even though there has been a
decline in occupancy, is not entitled to receive
a payment adjustment. Hospitals that receive
payments that are greater than the hospitals’
Medicare inpatient operating costs have been
“fully compensated” for those costs by the prospective payment system. Consequently, we
believe that no further adjustment should be
granted to these hospitals. Therefore, we proposed to revise Sec. 412.92(e)(3) to make it
clear that any adjustment amounts granted to
SCHs for a volume decrease may not exceed
the difference between the hospital’s Medicare inpatient operating costs and the total
payments made under the prospective payment system, including outlier payments and
indirect medical education payments.55
In 1989, CMS stated that it was transferring the responsibility for calculating the low-volume adjustment
determinations (including the calculation of the actual
low-volume adjustment payment) to its intermediaries
and would be issuing “instructions” to its intermediaries for this purpose.56 Shortly thereafter, in March
1990, CMS issued instructions at PRM 15-1 § 2810.57

55

Id. at 33049.
See 54 Fed. Reg. 36452, 36483 (Sept. 1, 1989) (stating that
the low-volume adjustment determination could be “decentralized
and handled entirely by intermediaries” and that “[w]e are preparing manual instructions for the intermediaries concerning the
determination of volume adjustments”).
57
PRM 15-1, Transmittal 356 (Mar. 1990) (adding § 2810
“instructions [to] specify the criteria that a hospital must meet to
be classified as an SCH, the procedures for obtaining this
56

App. 92
In particular, in § 2810.1(B), CMS provided the following instructions to its intermediaries on the calculation of the low volume payment adjustment amount:
Additional payment is made to an eligible
SCH for the fixed costs it incurs in the period
in providing inpatient hospital services including the reasonable cost of maintaining
necessary core staff and services, not to exceed the difference between the hospital’s
Medicare inpatient operating cost and the
hospital’s total DRG revenue.
[17] Thus, the formula for determining the payment
adjustment is “fixed costs . . . not to exceed the difference between the hospital’s Medicare inpatient operating cost and the hospital’s total DRG revenue.” This
formula is consistent with the controlling statute
which is quite clear when it states that the low-volume
payment adjustment is “ . . . to fully compensate the
hospital for fixed costs it incurs in the period in providing inpatient hospital services, including the reasonable costs of maintaining necessary core staff and
services.”58
In PRM 15-1 § 2810.1(D), CMS sets for the method for
determining the ceiling amount. Specifically, CMS
states:

classification, and the special payment provisions applicable to
these hospitals” (emphasis added)).
58
(Emphasis added.)

App. 93
D. Determination on Requests.—. . . .
The payment adjustment is calculated under
the same assumption used to evaluate core
staff, i.e., the hospital is assumed to have
budgeted based on prior year utilization and
to have had insufficient time in the year in
which the volume decrease occurred to make
significant reductions in costs. Therefore, the
adjustment allows an increase in cost up to
the prior year’s total Program Inpatient Operating Cost (excluding pass-through costs), increased by the PPS update factor.
EXAMPLE A: Hospital C has justified an adjustment to its DRG payment for its FYE September 30, 1987. The adjustment is calculated
as follows:
Hospital C
PPS Payment Adjustment
Fiscal Year Ended 09/30/87
1

FY 1986 Program Operating
Cost
PPS Update Factor
FY 1987 Maximum Allowable
Cost
Hospital C FY 1987 Program
Inpatient Operating Cost
2
FY 1987 DRG Payment
FY 1987 Payment Adjustment
1

$2,900,000
x
1.0115
$2,933,350
$2,800,000
- $2.500,000
$ 300,000

From Worksheet D-1, Part II, Line 54
From Worksheet E, Part A, Lines 1A and 1B

2

App. 94
Since Hospital C’s FY 1987 Program Inpatient Operating Cost was less than that of FY
1986 increased by the PPS update factor, its
adjustment is the entire difference between
FY 1987 Program Inpatient Operating Costs
and FY 1987 DRG payments.
[18] EXAMPLE B: Hospital B has justified an
adjustment to its DRG payment for its FYE
December 31, 1988. The adjustment is calculated as follows:
Hospital D
PPS Payment Adjustment
Fiscal Year Ended 12/31/88
FY 1987 Program Operating
Cost
PPS Update Factor
FY 1988 Maximum Allowable
Cost
Hospital D FY 1988 Program
Inpatient Operating Cost
FY 1988 DRG Payment
FY 1988 Payment Adjustment

$1,400,000
x
1.0247
$1,434,580
$1,500,000
- $1,020,000
$ 414,580

Hospital D’s FY 1988 Program Inpatient Operating Cost exceeded that of FY 1987 increased by the PPS update factor, so the
adjustment is the difference between FY 1987
cost adjusted by the update factor and FY
1988 DRG payments.
Based on the above, the Board concludes that the formula for determining the low volume adjustment payment in situations where there are no excess labor

App. 95
costs is simply the provider’s fixed costs not to exceed
the ceiling specified in 42 C.F.R. § 412.92(e)(3).59
In the case at hand, both of the parties provided their
proposed calculation of the volume decrease adjustment for the Board’s consideration. The Board examined both and found that the neither party calculation

59

The Board is aware of the following discussion included in
the preamble to the August 18, 2006 final rule:
The process for determining the amount of the volume
decrease adjustment can be found in section 2810.1 of
the Provider Reimbursement Manual. Fiscal intermediaries are responsible for establishing whether an
SCH . . . is eligible for a volume decrease adjustment
and, if so, the amount of the adjustment. To qualify for
this adjustment, the SCH . . . must demonstrate that:
(a) a 5 percent or more decrease of total discharges has
occurred; and (b) the circumstance that caused the decrease in discharges was beyond the control of the hospital. Once the fiscal intermediary has established that
the SCH . . . satisfies these two requirements, it will
calculate the adjustment. The adjustment amount is
determined by subtracting the second year’s costs minus
any adjustment for excess staff; or (b) the previous year’s
costs multiplied by the appropriate IPPS update factor
minus any adjustment for excess staff. The SCH . . . receives the difference in a lump-sum payment.
71 Fed. Reg. 47870, 48056 (Aug. 18, 2006) (emphasis added). See
also 73 Fed. Reg. 48434, 48630-48631 (Aug. 19, 2008) (restating
this same discussion). This discussion suggests that the ceiling
amount is in fact the payment adjustment amount. However, the
Board finds that this discussion must be read in the larger context
of PRM 15-1 § 2810.1 to which this discussion cites and not just
subsection (D) where the ceiling is calculated. In particular, subsection (B) must be given effect and subsection (D) must be read
together with subsection (B).

App. 96
met the requirements of the controlling federal statute
and regulation and the interpretive guidance.
[19] The Provider utilized the instructions at PRM 151§ 2810.1(D) as applied in the examples A and B to calculate its payment adjustment amount. The Provider’s
calculations are consistent with these examples and
identify the differential between the Provider’s FY
2005 program operating costs and its FY 2006 DRG
payments. Specifically, the Provider made the following calculations as shown in Provider Exhibit P-3:
Line #
FY 2005 program operating
cost
PPS update factor
FY 2005 Maximum allowable
costs
FY 2006 program inpatient
operating costs
FY 2006 DRG payment
FY 2006 payment adjustment

1 $6,714,575
2
1.037
3 $6,963,014
4 $5,698,829
5 $4,957,521
6 $ 741,308

However, this amount is only the ceiling as reflected in
42 C.F.R. § 412.92(e)(3). Pursuant to the formula in
PRM 15-1 § 2810.1(B) the adjustment amount is fixed
costs not to exceed this ceiling. The Board finds that
the Provider’s fixed costs of $5,033,835 for FY 2006 exceeded this ceiling of $741,308 and, accordingly, the
volume decrease adjustment amount is $741,308 once
the ceiling is applied.60

60

The Board notes that the PRM 15-1 § 2810.1 instructions
take into account the three factors delineated in 42 C.F.R.

App. 97
The MAC presented the following method61 that it
used to calculate the volume decrease adjustment
amount:
1 FY 2005 Operating Costs
2 PPS Update Factor
3 FY Adjusted 2005 Operating
Costs
FY 2006 Operating Costs
5 Net Variable Costs for FY
2006
6 FY 2006 Operating Costs
Less Variable Costs
7 Lesser of adjusted FY 2005
or FY 2006 Operating Costs
8 FY 2006 DRG Payments
9 Net Volume Adjustment
(Line 7 – Line 8)

$6,719,371
1.037
$6,964,876
$5,698,829
$ 664,994
$5,033,835
$5,033,825
$4,957,521
$

76,314

The Board’s examination of this method shows that
the MAC in essence made a modified ceiling calculation by considering only fixed and semi-fixed costs (as
§ 412.92(e)(3)(i). First, the formula takes into account the first
two factors (i.e., the Provider’s needs and circumstances and the
Provider’s fixed and semi-fixed costs) because the formula uses
the budgeted operating costs, the actual operating costs, and the
actual fixed/semi-fixed costs. Second, it takes into the length of
time that the Provider experienced the volume decrease which in
this case was the full fiscal year.
61
Provider Exhibit P-2 at 3. The MAC has asserted that, at
the time that the MAC developed its calculations, complete guidance from CMS on the calculation of the volume decrease allowance was not available. See Tr. at 322-330. The MAC developed
its estimate based upon its interpretation of the instructions and
the limited guidance provided by CMS that was available at that
time.

App. 98
opposed to all inpatient operating costs) in relation to
the DRG payments. The MAC should have applied the
formula in PRM 15-1 § 2810.1(B) that the low volume
adjustment payment is fixed costs not to exceed the
ceiling [20] stated in 42 C.F.R. § 412.92(e)(3), i.e., “the
difference between the hospital’s inpatient operating
costs and the hospital’s total DRG revenue for inpatient operating costs.”
DECISION AND ORDER:
VARIABLE COSTS:
The MAC correctly identified and eliminated variable
cost in determining that the Provider’s fixed costs for
FY 2006 was $5,033,835 for purposes of the determination on the Provider’s request for a sole community
hospital volume decrease adjustment. Accordingly, the
adjustment of these costs is affirmed.
VOLUME DECREASE ADJUSTMENT AMOUNT:
The MAC improperly calculated the low volume adjustment payment for the Provider. The Provider is
subject to the “not to exceed” limitation imposed by the
controlling regulation found at 42 C.F.R. § 412.92(e)(3)
and, consistent with the application of PRM 15-1
§ 2180.1 and that limitation to this case, the Provider
should receive a volume decrease adjustment payment
in the amount of $741,308. Accordingly, the MAC’s calculation of the low volume adjustment payment is
modified.

App. 99
BOARD MEMBERS PARTICIPATING
Michael W. Harty
John Gary Bowers, CPA
Clayton J. Nix, Esq.
L. Sue Andersen, Esq.
FOR THE BOARD:
/s/ Michael W. Harty
Michael W. Harty
Chairman
DATE:

JUL 10 2014

App. 100
42 U.S.C.A. § 1395ww
§ 1395ww. Payments to hospitals for inpatient
hospital services, provides in pertinent part:
(a) Determination of costs for inpatient hospital services; limitations; exemptions; “operating
costs of inpatient hospital services” defined
*

*

*

(4) For purposes of this section, the term “operating
costs of inpatient hospital services” includes all routine
operating costs, ancillary service operating costs, . . .
and includes the costs of all services for which payment
may be made under this subchapter that are provided
by the hospital
*

*

*

(d) Inpatient hospital service payments on basis of prospective rates;
*

*

*

(1)(A) . . . the amount of the payment with respect to
the operating costs of inpatient hospital services (as
defined in subsection (a)(4)) of a subsection (d) hospital
(as defined in subparagraph (B)) for inpatient hospital
discharges in a cost reporting period or in a fiscal
year—
*
(iii)

*

*

beginning on or after April 1, 1988, is equal to—
(I) the national adjusted DRG prospective payment rate determined under paragraph (3) for
such discharges

App. 101
*

*

*

[(5)(D)](ii) In the case of a sole community hospital
that experiences, in a cost reporting period compared
to the previous cost reporting period, a decrease of
more than 5 percent in its total number of inpatient
cases due to circumstances beyond its control, the Secretary shall provide for such adjustment to the payment amounts under this subsection . . . as may be
necessary to fully compensate the hospital for the fixed
costs it incurs in the period in providing inpatient hospital services, including the reasonable cost of maintaining necessary core staff and services.
*

*

*

App. 102
42 C.F.R. § 412.92(e) (2004, 2005)
42 C.F.R. § 412.92(e) (2004, 2005), Additional payments to sole community hospitals experiencing a significant volume decrease, provides in pertinent part:
*

*

*

(e) Additional payments to sole community hospitals
experiencing a significant volume decrease.
(1) For cost reporting periods beginning on or after
October 1, 1983, the intermediary provides for a payment adjustment for a sole community hospital for any
cost reporting period during which the hospital experiences, due to circumstances as described in paragraph
(e)(2) of this section a more than five percent decrease
in its total discharges of inpatients as compared to its
immediately preceding cost reporting period.
*

*

*

(3) The intermediary determines a lump sum adjustment amount not to exceed the difference between the
hospital’s Medicare inpatient operating costs and the
hospital’s total DRG revenue for inpatient operating
costs based on DRG-adjusted prospective payment
rates for inpatient operating costs.
*

*

*

(i) In determining the adjustment amount, the intermediary considers—
(A) The individual hospital’s needs and circumstances, including the reasonable cost of maintaining necessary core staff and services in view of

App. 103
minimum staffing requirements imposed by State
agencies;
(B) The hospital’s fixed (and semi-fixed) costs,
other than those costs paid on a reasonable cost
basis under part 413 of this chapter; and. . . .

App. 104
CMS Pub. 15-1 § 2810.1
Centers for Medicare & Medicaid Services, Provider Reimbursement Manual, CMS Pub. 15-1
§ 2810.1, Additional Payments To SCHs That Experience A Decrease In Discharges, provides in pertinent
part:
*

*

*

Additional Payments To SCHs That Experience A Decrease In Discharges.—If a hospital that is classified
as an SCH experiences, due to circumstances beyond
its control, a decrease of more than 5 percent in its total number of discharges compared to the immediately
preceding cost reporting period, the hospital may receive a payment adjustment.
*

*

*

B. Amount of Payment Adjustment.—Additional
payment is made to an eligible SCH for the fixed costs
it incurs in the period in providing inpatient hospital
services including the reasonable cost of maintaining
necessary core staff and services, not to exceed the difference between the hospital’s Medicare inpatient operating cost and the hospital’s total DRG revenue.
Fixed costs are those costs over which management
has no control. Most truly fixed costs, such as rent, interest, and depreciation, are capital-related costs and
are paid on a reasonable cost basis, regardless of volume. Variable costs, on the other hand, are those costs
for items and services that vary directly with utilization such as food and laundry costs.

App. 105
In a hospital setting, however, many costs are neither
perfectly fixed nor perfectly variable, but are semifixed.
Semifixed costs are those costs for items and services
that are essential for the hospital to maintain operation but also vary somewhat with volume. For purposes
of this adjustment, many semifixed costs, such as personnel-related costs, may be considered as fixed on a
case-by-case basis.
In evaluating semifixed costs, the intermediary considers the length of time the hospital has experienced a
decrease in utilization. For a short period of time, most
semifixed costs are considered fixed. As the period of
decreased utilization continues, we expect that a costeffective hospital would take action to reduce unnecessary expenses. Therefore, if a hospital did not take such
action, some of the semifixed costs may not be included
in determining the amount of the payment adjustment.
The adjustment amount includes the reasonable cost
of maintaining necessary core staff and services. The
intermediary reviews the determination of core staff
and services based on an individual hospital’s needs
and circumstances; e.g., minimum staffing requirements imposed by State agencies.
*

*

*

App. 106
C. Requesting Additional Payments.—. . . . The request must include the following documentation.
*

*

*

4. Cost Data.—The hospital’s request must include
cost reports for the cost reporting period in question
and the immediately preceding period. The submittal
must demonstrate that the Total Program Inpatient
Operating Cost, excluding pass-through costs, exceeds
DRG payments, including outlier payments. No adjustment is allowed if DRG payments exceeded program
inpatient operating cost.
*
D.

*

*

Determination on Requests.—
*

*

*

The payment adjustment is calculated under the same
assumption used to evaluate core staff, i.e. the hospital
is assumed to have budgeted based on prior year utilization and to have had insufficient time in the year in
which the volume decrease occurred to make significant reductions in cost. Therefore, the adjustment allows an increase in cost up to the prior year’s total
Program Inpatient Operating Cost (excluding passthrough costs), increased by the PPS update factor.

App. 107
EXAMPLE A: Hospital C has justified an adjustment
to its DRG payment for its FYE September 30, 1987.
The adjustment is calculated as follows:
Hospital C
PPS Payment Adjustment
Fiscal Year Ended 09/30/87
1

FY 1986 Program Operating Cost

PPS Update Factor

$2,900,000
x

1.0115

FY 1987 Maximum Allowable Cost

$2,933,350

Hospital C FY 1987 Program
Inpatient Operating Cost

$2,800,000

2

FY 1987 DRG Payment

FY 1987 Payment Adjustment
1
2

–

$2,500,000
$ 300,000

From Worksheet D-1, Part II, Line 54
From Worksheet E, Part A, Lines 1A and 1B

Since Hospital C’s FY 1987 Program Inpatient Operating Cost was less than that of FY 1986 increased by
the PPS update factor, its adjustment is the entire difference between FY 1987 Program Inpatient Operating Cost and FY 1987 DRG payments.

App. 108
EXAMPLE B: Hospital D has justified an adjustment
to its DRG payment for its FYE December 31, 1988.
The adjustment is calculated as follows:
Hospital D
PPS Payment Adjustment
Fiscal Year Ended 12/31/88
FY 1987 Program Operating Cost

$1,400,000

PPS Update Factor

x

1.0247

FY 1988 Maximum Allowable Cost

$1,434,580

Hospital D FY 1988 Program
Inpatient Operating Cost

$1,500,000

FY 1988 DRG Payment

–

FY 1988 Payment Adjustment

$1,020,000
$ 414,580

Hospital D’s FY 1988 Program Inpatient Operating
Cost exceeded that of FY 1987 increased by the PPS
update factor, so the adjustment is the difference between FY 1987 cost adjusted by the update factor and
FY 1988 DRG payments.
*

*

*

